<html>
<title> - HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-37]
 
                                HEARING
                                   ON
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2008
                                  AND
              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                 STRATEGIC FORCES SUBCOMMITTEE HEARING

                                   ON

  BUDGET REQUEST FOR THE DEPARTMENT OF ENERGY'S ATOMIC ENERGY DEFENSE 
                               ACTIVITIES

                               __________

                              HEARING HELD

                             MARCH 20, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
37-319 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               TRENT FRANKS, Arizona
RICK LARSEN, Washington              MAC THORNBERRY, Texas
JIM COOPER, Tennessee                MICHAEL TURNER, Ohio
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
DAVID LOEBSACK, Iowa
                 Rudy Barnes, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                    Jason Hagadorn, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, March 20, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request for the Department of 
  Energy's Atomic Energy Defense Activities......................     1

Appendix:

Tuesday, March 20, 2007..........................................    31
                              ----------                              

                        TUESDAY, MARCH 20, 2007
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
      THE DEPARTMENT OF ENERGY'S ATOMIC ENERGY DEFENSE ACTIVITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Ranking 
  Member, Strategic Forces Subcommittee..........................     3
Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1

                               WITNESSES

D'Agostino, Hon. Thomas P., Acting Under Secretary for Nuclear 
  Security and Administrator, National Nuclear Security 
  Administration, accompanied by; Hon. Will Tobey, Deputy 
  Administrator for Defense Nuclear Non-proliferation beginning 
  on.............................................................     4
Podonsky, Glenn S., Chief Health, Safety and Security Officer, 
  U.S. Department of Energy......................................    10
Rispoli, Hon. James A., Assistant Secretary for Environmental 
  Management, U.S. Department of Energy..........................     7

                                APPENDIX

Prepared Statements:

    D'Agostino, Hon. Thomas P....................................    35
    Podonsky, Glenn S............................................    72
    Rispoli, Hon. James A........................................    61

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Everett..................................................   101
    Ms. Tauscher.................................................    89
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
      THE DEPARTMENT OF ENERGY'S ATOMIC ENERGY DEFENSE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                           Washington, DC, Tuesday, March 20, 2007.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2212, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. Good morning. This hearing of the Strategic 
Forces Subcommittee will come to order.
    Today, we will consider the Department of Energy's (DOE) 
fiscal year 2008 budget request.
    Let me begin by welcoming our distinguished witnesses: the 
Honorable Tom D'Agostino, Acting Administrator of the National 
Nuclear Security Administration (NNSA); the Honorable James 
Rispoli, DOE Assistant Secretary for Environmental Management 
(EM); and Mr. Glenn Podonsky, the Director of DOE Office of 
Health, Safety and Security (HSS).
    I want to thank our witnesses for appearing before the 
subcommittee. Each of you brings a wealth of experience and 
talent to your role.
    The fiscal year 2008 budget request for the Department of 
Energy totals over $24 billion. The Committee on Armed Services 
annually authorizes about two-thirds of this total for Atomic 
Energy Defense Activities.
    This year the request of $15.8 billion for these programs 
is basically flat compared to last year's budget request. It 
requests an increase of about $115 million over the last year's 
Continuing Resolution appropriation.
    This committee and I have been and remain strong supporters 
of the critical missions embodied in your respective program 
areas. Between the three of you, your portfolios include 
responsibilities and oversight for maintaining and ensuring the 
reliability of our Nation's nuclear deterrent, conducting the 
scientific research and production activities necessary to 
support that deterrent, keeping the arsenal and complex safe 
from physical and other threats, leading the Government's 
international non-proliferation efforts, and cleaning up the 
environmental legacy of decades of nuclear stockpile work.
    Congress is here to help you with these critical tasks. But 
as you know, we also bare a responsibility to scrutinize the 
policies and priorities and the spending of the Department and 
of the NNSA. In that spirit, the subcommittee is eager to hear 
your testimony about the fiscal year 2008 budget request.
    We are especially interested in five areas.
    First, what does the budget indicate about the stewardship 
of our nuclear weapons stockpile? Are we devoting adequate 
resources to the Stockpile Stewardship Program life extension 
and stockpile maintenance activities and the dismantlement work 
that is critical to the down-sizing of our weapons stockpile, 
which is still too large? Does the proposed Reliable 
Replacement Warhead, RRW, program fit in, and how does it fit 
in?
    Second, does the budget balance various safety and security 
priorities appropriately? Is the NNSA able to bring the complex 
into compliance with the 2005 Design Basis Threat (DBT) 
standards while simultaneously addressing rapidly growing cyber 
security threats?
    Third, how does the budget support the various commitments 
the Federal Government has made within the cleanup program? Are 
you employing earned-value management systems for troubled 
projects such as Waste Treatment Plant (WTP)?
    How does the budget help speed consolidation of special 
nuclear materials (SNM)? How does your consolidations plan 
affect each of these broad areas: stockpile stewardship, safety 
and security, and environmental cleanup? Do the challenges 
facing the mixed oxide (MOX) program affect consolidation 
plans?
    And finally, I would like to know why the Defense Nuclear 
Non-Proliferation Budget is cut in a number of areas, including 
verification, research and development (R&D), and non-
proliferation in international security.
    DOE's non-proliferation programs are some of our most 
critical national security tools. And I have advocated that 
they be fully funded for some time.
    I would like to commend you and the NNSA on the outstanding 
progress over the last several years in the construction of the 
National Ignition Facility (NIF) and its campaign for fusion 
ignition. But I am deeply concerned that the President's 2008 
request for the National Ignition Campaign cannot sustain this 
effort as planned without increased delay or risk.
    Due to your efforts, the U.S. is poised to capitalize on 
this investment and achieve fusion ignition for the first time 
in history. Attaining fusion ignition is crucial to the 
stewardship of our nuclear stockpile and a key capability in 
the supporting complex, and achieving vital security in non-
proliferation goals, ensuring the safety and reliability of our 
nuclear weapons without live testing. And this is why I will 
work closely with you to ensure that this schedule is 
maintained.
    These are the kinds of concerns we hope you will address in 
your testimony.
    With that, let me turn to my good friend, our Ranking 
Member, the distinguished gentleman from Alabama, Mr. Everett, 
for any comments he may have.
    Mr. Everett.

STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM ALABAMA, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. Thank you, Madam Chairman. And thank you for 
your leadership in calling this hearing that we all have a 
great interest in. And I want to join you in welcoming our 
panel.
    Let me start by thanking you for your dedication and your 
service and also to the hard working men and women at DOE and 
NNSA. It has been a demanding year for DOE and NNSA.
    I want to publicly thank Mr. D'Agostino. This committee has 
a great deal of respect for Ambassador Brooks. And in his 
absence, we appreciate the leadership that you have given and 
that you have provided to NNSA and its workforce. I hope you 
will soon have some help at the helm.
    Bill Ostendorff has served this committee as counsel for 
over three years. He has earned the respect of members across 
both sides of the aisle. And personally he has come to be one 
of my most trusted advisers. While I hate to lose our 
colleague, I know NNSA will gain a man of great principle and 
integrity.
    I believe nuclear weapons will continue to play a role in 
our Nation's strategic deterrent for years to come. And as long 
as there are other countries in the world that seek to acquire 
and develop their own nuclear capabilities, we will need to 
stay one step ahead in our knowledge of how they work and how 
to prevent their proliferation. This demands that we sustain 
our nuclear capability infrastructure and expertise in the 
foreseeable future.
    With the Cold War generation beginning to retire, we must 
also ensure that our capabilities and know-how does not retire 
with them. This is why I look at the initiatives like Complex 
Transformation and RRW as critically important to the long-term 
stability of our nuclear capabilities.
    The fiscal year 2008 budget request reflects a great deal 
of thought and hard work. However, as we work through the 
authorization process, we have a responsibility to address some 
important issues that I would like to ask the witnesses to 
discuss today.
    Mr. D'Agostino, I would like to highlight a few areas that 
I am specifically interested in hearing about today: the way 
ahead for the RRW program and specifically, activities planned 
in fiscal year 2008.
    I want to thank you and General Cartwright for briefing the 
chairman and myself and our appropriations colleagues on RRW 
earlier this month. The more you can do in communicating how 
RRW meets the objectives laid out by Congress in our 2006 
authorization bill, the more informed our decision making 
process becomes.
    Progress is being made to transform the nuclear weapons 
complex to achieve the responsible infrastructure required for 
the future and the extent to which transformation of the 
complex is independent specifically of RRW decisions.
    It is my understanding that outyear funding for Complex 
Transformation is not included in this year's budget request. 
However, I would ask NNSA to come back to Congress once further 
details are developed and infrastructure decisions are made.
    Last, progress in the consolidation and disposition of 
nuclear material, including the status of the MOX fuel facility 
project and the impact of the continuing resolution, not just 
on MOX, but the larger security and financial costs of not 
consolidating nuclear materials in the near term.
    Secretary Rispoli, I am particularly interested in hearing 
the following: progress in the disposition of special nuclear 
materials and radioactive tank waste. Consolidation of nuclear 
materials across the complex is a key component of this 
transformation.
    And then on the security concerns of our complex, we 
continue to be deeply troubled by the security breaches across 
the complex that compromise our Nation's national security.
    And, Mr. Secretary, discussing those, I would like to hear 
about Federal oversight of security and NNSA sites--are we 
making progress? Do we have personnel and the resources 
provided to do efficient oversight?
    Your thoughts on the how the Department approaches and 
implements the design, basis, theory, criteria, and how the 
Department balances its investments and physical and cyber 
security--are we doing enough in the area of risk analysis to 
ensure that the taxpayers are getting a good return on each 
dollar invested in security?
    DOE and NNSA have had significant issues in front of them, 
and all must be addressed within a relatively flat budget line. 
Within this relatively flat line, NNSA will start work on the 
RRW program, transform the nuclear weapons complex, continue 
non-proliferation efforts, consolidate and dispose of special 
nuclear materials, and continue to provide the highest level of 
safety and security that our nation's nuclear weapons demand.
    Thank you all, again, for being with us here today.
    Madam Chairman, I again thank you for your leadership in 
calling this important meeting. Thank you.
    Ms. Tauscher. Thank you, Mr. Everett. And I would like to 
echo your comments about Bill Ostendorff, who has served this 
committee very ably for more than three years.
    Bill, I hope the Senate provides you with swift 
confirmation. And I look forward to working with you in your 
new post. The NNSA will be very strong with you on their team.
    Gentlemen, the floor is yours.
    I do want to note that we will observe the five-minute rule 
during our opening statements, as well as during the question-
and-answer period. We have all seen and read your prepared 
testimony. Thank you for getting it up to the Hill in a timely 
basis. So if you would like to simply summarize or hit a few 
highlights, we welcome that.
    And, Administrator D'Agostino, why don't you start off?

STATEMENT OF HON. THOMAS P. D'AGOSTINO, ACTING UNDER SECRETARY 
   FOR NUCLEAR SECURITY AND ADMINISTRATOR, NATIONAL NUCLEAR 
   SECURITY ADMINISTRATION, ACCOMPANIED BY; HON. WILL TOBEY, 
   DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR NON-PROLIFERATION

    Mr. D'Agostino. Madam Chairman, thank you very much.
    I am Tom D'Agostino, the Acting Administrator for the 
National Nuclear Security Administration, NNSA, and Deputy 
Administrator for Defense Programs.
    I am accompanied today by Will Tobey, the Deputy 
Administrator for Defense Nuclear Non-proliferation.
    And I also have in the room a number of our future leaders 
sitting probably in the back there somewhere getting an 
opportunity to see how we work firsthand. And it is very 
important for them to see this. And I am excited that they are 
here.
    The President's fiscal year 2008 budget request for the 
NNSA is $9.4 billion.
    It supports three basic national security missions. The 
first is to assure the safety, security, and reliability of our 
nation's nuclear weapons stockpile while at the same time 
transforming that stockpile and the infrastructure itself. The 
second is to reduce the threat posed by nuclear proliferation. 
And the third is to provide reliable and safe nuclear reactor 
propulsion systems for the United States Navy.
    I am pleased to report that stockpile stewardship is 
working. This program has proven its ability to successfully 
sustain the stockpile and the safety, security, and reliability 
of the nuclear arsenal without the need to conduct an 
underground test for over a decade.
    In order to meet the long-term objectives, we have 
developed a vision and strategy that is consistent with the 
2001 Nuclear Posture Review (NPR) which is described in our 
Complex 2030 vision statement that was provided to Congress 
late last year.
    Many actions to transform the size and operations of the 
complex, transform the stockpile, and drive the science and 
technology base are well under way: reducing the number of 
sites with category 1 and 2 special nuclear material and 
consolidating such material within the remaining sites, 
maintaining the accelerated rate of dismantlements, retired 
warhead dismantlements, reconstituting the Nation's nuclear 
weapon pit production capability, and reviving our ability to 
extract tritium for use in the stockpile at the new tritium 
extraction facility at the Savannah River Site (SRS).
    Our decision to pursue the RRW, Reliable Replacement 
Warhead strategy is not the result of a failure from stockpile 
stewardship, as some have suggested. It is a reflection 
actually upon its success. The Stockpile Stewardship Program 
has revealed the need to pursue this strategy.
    Moreover, aggressive pursuit of the new scientific tools 
already in use and being developed under stockpile stewardship 
is essential, not only to sustain the existing stockpile as 
long as they are needed, but also for our efforts to design, 
develop, and produce replacement warheads that are safer, more 
reliable, and cost effective over the long term without nuclear 
testing.
    I would like to emphasize that our recent announcement to 
direct the selection of a baseline design for further study, it 
was not an announcement for a decision to actually build 
replacement warheads. Over the next 9 to 12 months our plans 
include to develop a detailed cost, scope, and schedule 
baseline for the Reliable Replacement Warhead for the Trident 
submarine launch.
    With this baseline, we will be able to develop the details 
necessary for us to evaluate a decision to reduce the number of 
life extensions and request authorization and appropriation to 
proceed with full-scale engineering development for RRW. We 
will work very closely with Congress as we move forward to 
ensure that we proceed in a solid, steady, and measured manner.
    One of the major benefits of the RRW approach is that it 
reinforces our non-proliferation commitments and objectives. 
The RRW strategy will allow us to increase our warhead 
dismantlement rate, sending a strong message to the world that 
we are taking meaningful steps toward further stockpile 
reductions.
    Additionally, increased long-term confidence in the 
credibility of the U.S. nuclear deterrent will assure allies 
and obviate any need for them to develop and field their own 
nuclear forces. Finally, the improved security features of RRW 
will prevent unauthorized use should a warhead ever fall into 
the hands of a terrorist.
    In the area of defense non-proliferation, NNSA has worked 
with over 100 international partners to detect, prevent, and 
reverse proliferation of Weapons of Mass Destruction (WMD). 
Securing and reducing the quantity of nuclear and radiological 
materials, bolstering border security overseas, strengthening 
the international non-proliferation export control regimes, and 
conducting cutting edge research and development into nuclear 
detection technologies are key mission areas of this office.
    Meeting our commitment under the Bratislava Agreement to 
conclude security upgrade activities at Russian nuclear sites 
by the end of 2008 is our highest priority during this upcoming 
fiscal year. As a result of our efforts to accelerate this work 
in the wake of 9/11 and the momentum created by the Bratislava 
process, we are well-positioned to successfully reach this 
milestone on schedule and in the fiscal year 2008 timeframe.
    In addition to our work with Russia, some of the highlights 
in the fiscal year 2008 budget include completing the 
installation of radiation detection monitors at ports in 
Belgium, Oman, and the Dominican Republic, continuing the MOX 
Fuel Fabrication Facility project to eventually dispose of 
surplus United States plutonium and supporting the U.S. role in 
international non-proliferation efforts such as the global 
initiative to combat nuclear terrorism.
    There is an effective synergy between the NNSA's weapons 
activities and non-proliferation. For example, we have 
dismantled more than 13,000 nuclear weapons since 1988. 
Operationally deployed U.S. and Russian strategic nuclear 
warheads will not exceed 1,700 to 2,200 by December 31, 2012.
    In 2003, the Department of Energy completed dismantlement 
of most of its non-strategic nuclear weapons limiting our 
stockpile of these systems to one-tenth of the Cold War levels. 
In May 2004, President Bush approved a plan that will cut the 
United States stockpile by almost one-half from the 2001 level. 
And by the end of 2012, the Department's efforts will have 
reduced the stockpile to its smallest level in many, many 
decades.
    And in addition to weapon dismantlement, the Department is 
making tremendous progress to reduce and to eliminate fissile 
material made surplus to defense requirements. I am confident 
that the NNSA is headed in the right direction in the coming 
fiscal year.
    This concludes my statement. And I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. D'Agostino can be found in 
the Appendix on page 35.]
    Ms. Tauscher. Thank you.
    Secretary Rispoli.

  STATEMENT OF HON. JAMES A. RISPOLI, ASSISTANT SECRETARY FOR 
      ENVIRONMENTAL MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Secretary Rispoli. Thank you, Madam Chairman.
    Madam Chairman, Congressman Everett, members of the 
subcommittee, I am pleased to be here today to answer your 
questions on the fiscal year 2008 budget request for the 
Environmental Management program. I want to thank you and your 
subcommittee for your continuing support.
    As you know, the EM program has solved a number of cleanup 
challenges, including Rocky Flats, Fernald, major facilities 
that possess significant quantities of plutonium and uranium 
that at one time seemed unanswerable. In addition, we have 
completed the EM responsibilities for cleanup at active DOE 
sites such as the Lawrence Livermore National Lab's (LLNL) main 
site.
    We are making progress on many other complex challenges 
that our program still faces. We have been able to achieve 
notable results through risk reduction and prioritization and 
the judicious use of the resources that the Congress entrusts 
to us on behalf of the American people. I would like to quickly 
run through some posters showing some of EM's recent cleanup 
successes and key accomplishments.
    The first one is the Rocky Flats poster; before and after 
pictures of the site, which is adjacent to the Denver suburbs. 
We cleaned this site up 14 months ahead of contract schedule. 
And it is in the process of being transitioned to the 
Department of the Interior. I would like to point out that this 
site had over 3.6 million gross square feet to be demolished 
and to make it look the way it does today to be turned into a 
natural wildlife refuge.
    At Fernald on January 19th, Secretary Bodman and I traveled 
to Southeastern Ohio with Environmental Protection Agency (EPA) 
Administrator Johnson to celebrate the cleanup of Fernald as 
well as two other sites. At Fernald, contamination poses a 
significant threat to the underlying drinking water aquifer. 
The photo you see today shows that the site is converted to 
parkland, wetlands, and prairie. And you will note also there 
is a 75-acre disposal cell, kind of like a landfill for the 
lower radioactivity waste that was put on site.
    At the same ceremony we celebrated the closure of Columbus 
in Ashtabula. The Columbus site is 31 acres. It is owned by the 
Battelle Memorial Institute. It was used for atomic energy 
research and development over the years and is now ready for 
re-use by its owner. Similarly, the 42-acre Ashtabula site, 
also in private ownership, is available for commercial re-use.
    The next photograph is of Miamisburg, Ohio closure project, 
also possessed nuclear materials. You can see the 
transformation of this site after most of those buildings were 
decontaminated, decommissioned, and removed. In the photo you 
will actually see that there are three other buildings that are 
remaining. And that is because this site is being worked into a 
reuse scheme with a local economic development organization. So 
you can see that they are taking advantage of some of the 
buildings.
    The next picture is Oak Ridge, the Melton Valley site. It 
is a portion of the Oak Ridge Reservation. Over 600,000 tons of 
rock and 2 million cubic yards of soil were removed. The 
Savannah River T-area is the next photo. There were 28 
buildings on this site that were taken away. Significant risk 
reduction because the site, this T-area, is very close to the 
Savannah River.
    The next photo shows a historic landmark for us. It is the 
arrival of the first remote handled trans-uranic waste to 
arrive at the Waste Isolation Pilot Plant (WIPP) in New Mexico. 
Our permit was granted by the state recently after working with 
the state and the EPA. And we have now completed a number of 
shipments from Idaho to the Waste Isolation Pilot Plant of this 
remote handled waste.
    The next photo is the K-east area. These are the famous K-
basins at the Hanford site, which we really need to get emptied 
because of the threat they pose to the Columbia River. You can 
see on the left side of the photo the spent fuel down through 
22 feet of water on top of the spent fuel. The challenges were 
enormous in getting the remnants, the deteriorated fuel that we 
call sludge and debris, out of there. That process has been 
going very well. As you can see, the workers in the center and 
the photo are looking down through the water on the right hand 
side with the cleanup.
    And the last photo I have for you is a very significant one 
as well. Thanks to the National Defense Authorization Act 
(NDAA) of 2005, Section 3116, we have the authority for the 
Secretary to make a determination on closure of tanks with just 
residual waste left in them. And this photo shows at 
Thanksgiving week of 2006 the process that was used using a 
pumper truck to actually grout the first three tanks at the 
Idaho National Laboratory (INL) facility.
    Madam Chairman, these cleanup successes were accomplished 
by the collaboration of DOE, Congress, state and national 
regulatory agencies, Indian nations, and the communities 
focusing on a common vision. These completions and 
accomplishments should be recognized as results derived from 
partnerships founded on mutual respect and collaboration. The 
results being delivered by the programs' risk reduction and 
prioritization strategy are proving that linking safety, 
performance, cleanup, and closure can lead to significant 
outcomes.
    The task is complex. We face multiple challenges of having 
to develop and deploy new technologies as we proceed. We 
recognized our regulatory commitments. We focus on urgent 
risks. And we are improving project performance and 
incorporating new project scope. As in many of these projects, 
we discover contamination that is far greater than had been 
anticipated. But our ingenuity and hard work are achieving 
progress for us.
    First and foremost, safety is our top priority. We continue 
to maintain and demand the highest safety performance. Every 
worker deserves to go home as healthy as they were when they 
came to work in the morning.
    One of my goals is that at least 90 percent of our project 
portfolios will meet or beat our cost and schedule targets. We 
have been conducting quarterly performance, face-to-face 
reviews of all of our projects with our leadership team.
    I am happy to tell you that we are showing measurable 
improvement. But we have yet to realize the full potential of 
implementing our management systems. We will continue our focus 
on risk management principles to identify project 
uncertainties, develop mitigation measures, and incorporate 
risk management into our every day business.
    EM's 2008 request for Defense Environmental Management 
Activities is $5.36 billion. In keeping with the principles of 
reducing risk and environmental liabilities, our 2008 request 
will support the following priority activities: stabilizing 
radioactive tank waste in preparation for treatment, about 37 
percent of our defense request; storing and safeguarding 
nuclear materials and spent nuclear fuel, about 19 percent of 
our 2008 request; dispositioning trans-uranic low-level and 
solid waste, about 16 percent of our 2008 request; and 
remediating major areas of our sites, D&Ding, decontaminating 
and decommissioning, excess facilities, about 19 percent of our 
request.
    Examples of milestones and planned activities by site-
specific categories are included in my formal statement that I 
request be accepted for the record. Per your request, I have 
got updates on the Waste Treatment Plant at Hanford, the Salt 
Waste Processing Facility at Savannah River, and plans for 
special nuclear material consolidation throughout the DOE 
weapons complex in that written testimony.
    The budget request reflects decisions to focus funding on 
activities we have identified to reduce the highest risks we 
face. Some of these decisions are not driven by existing client 
agreements. Therefore, this budget request does not cover some 
of the lower risk reducing activities that are covered by 
existing compliance agreements.
    Madam Chairman and members of this subcommittee, I assure 
you we will continue to work with your subcommittee and our 
regulators in implementing our risk reduction approach to 
ensure the best possible protection for the public. Challenges 
lie ahead. We are focused on our objectives and our strategy: 
safety, performance, cleanup, and closure that underpin our 
actions and initiatives.
    I look forward to continuing to work with this subcommittee 
and the Congress to address your concerns and interests. And I 
will be pleased to answer your questions. Thank you.
    [The prepared statement of Secretary Rispoli can be found 
in the Appendix on page 61.]
    Ms. Tauscher. Thank you, Mr. Secretary.
    Without objection, all of your statements will be submitted 
for the record.
    And, Mr. Podonsky.

   STATEMENT OF GLENN S. PODONSKY, CHIEF HEALTH, SAFETY AND 
          SECURITY OFFICER, U.S. DEPARTMENT OF ENERGY

    Mr. Podonsky. Thank you, Madam Chairwoman Tauscher and 
Ranking Member Everett and members of the subcommittee. I want 
to thank you for inviting me to testify on the Department of 
Energy's 2008 budget request for the Office of Health, Safety 
and Security, HSS.
    On October 1, 2006, Secretary Bodman created the Office of 
HSS to integrate Department of Energy's headquarters level 
functions for health, safety, environment, and security into 
one united office. We provide the Department with effective and 
consistent policy development, technical assistance, education 
and training, complex-wide independent oversight and 
enforcement for these important programs. We also address 
Department-wide, cross-cutting issues, enhanced collaboration 
and sharing of technical expertise and increased accountability 
for worker health, safety, and security responsibilities.
    Our 2008 budget request includes the funding needed to 
ensure continuance and complete coverage for all health, 
safety, environment, and security functions. As the 
Department's central organization responsible for health, 
safety and environment, and security, HSS provides corporate 
level leadership and strategic vision to coordinate and 
integrate these programs. As the chief health, safety, and 
security officer, I advise the Secretary and the Deputy 
Secretary on a wide range of matters related to these important 
disciplines across the complex.
    We work very closely with my colleagues to my right on all 
levels of environment safety, health, safeguards and security. 
The HSS budget request for 2008 of $428 million includes $328 
million for health, safety, and security programs and around 
$100 million for program direction. The details of this request 
are provided, obviously, in the formal budget request.
    However, in summary, the health, safety, and security 
programs that will continue will include such things as policy 
standards and guidance issued to ensure that workers and the 
public and the environment are adequately protected from the 
hazards of DOE activities; programs to improve worker nuclear 
facility safety that protect the public and the environment; 
programs that support domestic health studies and including the 
former worker program and studies to investigate and identify 
work-related injury and illnesses in the DOE worker population 
and populations surrounding the DOE sites.
    We also conduct international health studies to support 
radiation health effects research in Japan, the Marshall 
Islands, Russia, and Spain, efforts to support the 
implementation of the Department of Labor's (DOL) Energy 
Employee Occupational Illness Compensation Program Act. We work 
closely with DOL, National Institute for Occupational Safety 
(NIOSH), and the President's Advisory Board on Radiation Worker 
Protection by making sure that they have access to all the 
records they need to support claims filed by DOE contractors.
    The development of maintenance and proficiency and 
competence of DOE's safety and security professionals 
throughout the Department of Energy is also run out of our 
Albuquerque National Training Center.
    This request also provides for testing and deployment of 
new technologies, Mr. Everett, to deal with known security 
vulnerabilities as an alternative to security increases in 
manpower. It provides for classification activities to ensure 
the Department meets its statutory responsibility in 
implementing the U.S. Government-wide program to classify and 
declassify nuclear weapons-related technology and also to 
classify other information that is critical to the national 
security and background investigations as well as associated 
with providing access authorizations to DOE Federal and 
contractor personnel throughout the DOE complex.
    My management team and I are aware of the vital role and 
significant responsibility HSS has to ensure that the health, 
safety, and security functions of the Department are, in fact, 
strengthened by this new office. To meet this commitment, one 
of our major priorities following the creation of the office is 
to institutionalize our activities.
    In the interest of time, I will shorten my oral statement 
and just say, Madam Chairwoman and members of the subcommittee, 
HSS was created at the direction of Secretary Bodman to 
strengthen worker health, safety and security functions within 
the Department. This was a bold and courageous move. And we 
know time will demonstrate a significant positive change in the 
way the Department manages.
    Since its creation six months ago, we believe we have made 
significant strides toward improving the health and safety and 
security functions of the Department. And in this light, with 
your permission, Madam Chairwoman, I would like to submit for 
the record a list of HSS accomplishments during the first six 
months.
    Ms. Tauscher. Without objection.
    Mr. Podonsky. Thank you.
    [The prepared statement of Mr. Podonsky can be found in the 
Appendix on page 72.]
    Ms. Tauscher. You are welcome, Mr. Podonsky.
    Before we begin the questions, Administrator D'Agostino, I 
see that in addition to our witnesses, NNSA Deputy 
Administrator for Defense Nuclear Non-proliferation, Will 
Tobey, is with you today.
    And, Mr. Tobey, it is always good to see you. And thank you 
for your service.
    If you choose, Administrator D'Agostino, if you would like 
to have Mr. Tobey join you at the table, he can drag his chair 
right over and sit next to you, if you would like, if he is 
interested in perhaps answering some questions about non-
proliferation.
    Mr. D'Agostino. Yes. We will have him do that. Thank you 
very much, Madam Chairman.
    Ms. Tauscher. We are very mobile here. You have to drag 
your own chair over.
    I would also like to thank you, Administrator D'Agostino, 
for bringing some of your young leaders up to the Hill with 
you. If we have a chance after the hearing, I am sure members 
would like to say hello to them.
    Let me, on behalf of the committee, thank them for their 
service to their country and for the very hard work I know that 
they do at the NNSA. And hope, frankly, that they will stay in 
the Government and continue to do this work. It is very 
necessary to have smart, young people join the Government and 
do this very hard work.
    So thank you for your service.
    I have two questions to begin. One is about the Reliable 
Replacement Warhead, and the other is about non-proliferation 
programs.
    Administrator D'Agostino, as you know, this summer we had a 
very important study released talking about the length of life 
of plutonium pits. And I think that for some of us it was not a 
surprise to find out that the early designers were much more 
conservative than many of us even knew that they were. Even 
though they claimed to be conservative, we all believed that 
they were doing the right thing in putting all of these 
different kinds of protections in the weapons that they were 
designing and building.
    But I guess my question is, if we are actually living now 
with plutonium pits that have a half-life significantly longer 
than we expected, could we use the pits that are coming out of 
dismantled weapons or in systems that we have chosen to not use 
any longer and have them effectively be a new component for the 
Reliable Replacement Warheads? And might that avoid us needing 
to manufacture new pits, which is a concern that I think many 
of us have?
    Not only would a pit facility be very expensive, but it 
would be controversial. And I think that this approach might be 
particularly useful in replacing the weapons currently designed 
to be delivered by a bomber or a cruise missile.
    My second question is really about the non-proliferation 
efforts that the NNSA has had as a hallmark for many years. I 
am really concerned about the fiscal year 2008 budget request 
being below the 2007 request. And, you know, I think that we 
have to understand that it is not only the 9/11 Commission, but 
we generally accept that the biggest threat to the United 
States is the proliferation of Weapons of Mass Destruction, 
material, and know-how.
    And not a single non-proliferation program has been 
increased for the fiscal year 2008 budget. So I know that this 
is a big issue for NNSA. And a lot of outstanding work is done. 
But I guess I would like to know if there are unmet needs or 
unfulfilled requirements that could be met if you had 
additional funding.
    If you could expand a little on what those would be, and I 
would also like to have you submit something for the record on 
that.
    Thank you.
    Mr. D'Agostino. Okay. Madam Chairman, I will take the first 
question. I will ask my colleague to address the second 
question, if that is okay.
    Ms. Tauscher. Absolutely.
    Mr. D'Agostino. Your question was on pit re-use, as I 
understand it. And it is a very good question. It is one that 
we have thought about within the--not only within the NNSA, but 
also with our discussions with our colleagues in the Defense 
Department. One of the elements of the Reliable Replacement 
Warhead approach is to bring in features that allow intrinsic 
surety. Surety is a term for safety, security, and use control. 
And the pit is the heart of the matter in many respects as it 
relates to intrinsic surety.
    And so, the many pits that we have built in the 1950's, 
1960's, 1970's and 1980's, the vast majority do not have this 
feature associated without them. And without getting into 
classified, I would be glad to talk to the committee in a 
closed session to provide a little bit more technical detail.
    But from the standpoint of looking at reliable replacement 
concepts to address the majority of our current nuclear 
deterrent, which currently resides with our submarine launched 
missiles and warhead systems, that pit reuse would be very 
difficult, if not impossible, to incorporate in. And that is 
not the approach that we have taken.
    However, we are looking at--and as you know, the Nuclear 
Weapons Council did agree with our reliable replacement 
strategy as an alternative to the life extension strategy for 
the whole nuclear deterrent. And there are opportunities, I 
believe, where we can take our newest pits, for example, those 
few that have these features that account, and actually 
incorporate those. In fact, that is what we want to study. We 
will be taking a look at that particular question in 2007 and 
in 2008 and see how we can take advantage of that.
    My goal would be to make sure this Nation doesn't develop a 
capability that it doesn't need. We don't want to build a white 
elephant. We want to build a capability that is going to 
satisfy the Nation's need for the smallest stockpile and 
smallest size complex to address the deterrent needs in the 
future. And over-building a pit capability is certainly a very 
expensive proposition, has some political ramifications and 
also has implications on our workforce.
    As you know, right now our country does not have a 
sustainable pit capability. And we are developing a capability 
at Los Alamos to build up to ten pits per year this fiscal 
year. That is on one of my main items on our getting the job 
done list.
    The Los Alamos National Security has that challenge. It is 
not just about doing it once, though. They have to have the 
laboratory maintain that over a number of years. And they have 
that challenge and marker out there, too, to get up to 30 to 50 
pits per year.
    And a real question that I am looking at from a strategic 
standpoint is where is the knee in the curve between 50 pits 
per year and what we understand are current requirements from 
the DOD at about 125 per year. Is there a breakpoint where we 
can say the Nation--if we can get that requirement down to a 
certain level, the Nation will not have to invest in a multi-
billion dollar facility but will be able to look at its interim 
capability to satisfy its long-term needs along with pit reuse.
    As you understand, it is a very complicated balance of 
multiple variables. I am committed to looking at all of those 
and putting them in a way that is the most financially and 
programmatically responsible.
    Ms. Tauscher. Administrator D'Agostino, before we go to Mr. 
Tobey, I think what we will do is we will try to set up a 
classified hearing before the break. If we can't, we will do it 
in April.
    Mr. D'Agostino. Sure.
    Ms. Tauscher. Because I think that that sweet spot that you 
are talking about is really the difference between having an 
indigenous capability and building a multi-billion-dollar 
facility. And I think that we are very interested in 
understanding what the 2008 RRW studies will do to come to an 
answer more quickly than I think many of us expect we know 
right now.
    Thank you.
    Mr. D'Agostino. Yes, ma'am. I will turn it over to Will.
    Ms. Tauscher. Mr. Tobey.
    Mr. Tobey. Madam Chairman----
    Ms. Tauscher. Non-proliferation.
    Mr. Tobey. First of all, let me say I deeply appreciate 
your support and the support of other members for both our 
mission and our budget.
    Ms. Tauscher. You are welcome.
    Mr. Tobey. And I agree completely with your 
characterization of the importance of our mission. I guess by 
way of answer, I would only add a few points of what I believe 
are important context.
    First of all, I would note that our budget has roughly 
doubled since September 11, 2001. So it is up off a significant 
amount.
    Second, we have had some notable successes. We are 
beginning to complete our mission in a couple of areas. For 
example, the materials control protection and accountability 
work in Russia and elsewhere and also the elimination of 
weapons-grade plutonium production also in Russia. Those 
programs are reduced about $145 million in the budget request.
    And that reduction is simply a reflection of the fact that 
we are accomplishing our work and it is beginning--we are 
beginning to have concluded the mission. So given our 
relatively flat overall budget, the amount of work that we can 
do elsewhere has actually increased.
    Finally, I would note that I believe that the non-
proliferation budget is not the only place in which important 
non-proliferation work will be done within the Department of 
Energy. And in particular, I would point to the Global Nuclear 
Energy Partnership (GNEP) Program that has been proposed by the 
President.
    I believe that it has at least four possible major non-
proliferation objectives. First of all, it will reduce the 
incentives on other nations to indigenously produce nuclear 
material. Second, it should allow us to draw down stocks of 
separated plutonium. Third, it should advance proliferation-
resistant reactor technology. And fourth, it should advance 
safeguards technology.
    Ms. Tauscher. Thank you, Mr. Tobey.
    I am happy to recognize the Ranking Member, Mr. Everett.
    Mr. Everett. Thank you, Madam Chairman.
    Mr. D'Agostino, tell me again about the pits not having 
incorporated into them the mechanisms that we want. They do not 
have the mechanisms incorporated into them that would allow us 
to use these old pits. But then there is a date forward that we 
do have pits that could probably be used. Or did I 
misunderstand you?
    Mr. D'Agostino. No, I think you got that right. There are 
because of the multiple systems that we had had in the Cold War 
stockpile--and as you know, we have taken apart significant 
numbers of these warheads and are currently storing in these 
pits. Pits were made differently. They have different 
thicknesses. Some of them have features that will allow us to 
feel very safe if they get into the wrong hands. But the 
majority do not.
    And those more modern pits, if you will, for some of the 
systems that were designed and produced in the 1980's--visit 
Rocky Flats in the 1980's, some of those pits have features 
that we like. They are small numbers. I mean, certainly 
relative to the overall stockpile.
    And what we would like to do is examine those pits, those 
small numbers of pits as potential pits that would be used in 
future Reliable Replacement Warhead concepts. For example, if 
we were looking at providing reliable replacement concepts into 
a bomb, we would look primarily to one of those pits that we 
already know has these features. And assuming the shape is not 
a problem, then we would use that particular pit in that system 
because it would have, again, offset further expense.
    A warhead on top of a ballistic missile is a little bit of 
a different animal because of the constraints associated with 
the size. And therefore, we had to kind of start from the 
ground up on that particular system. And we didn't have enough 
of those old other pits.
    The features themselves are classified but important for 
you to understand. And I will be glad to provide a little bit 
more in a closed session on that.
    Mr. Everett. There have been some suggestions from some 
that we do not need to proceed on RRW because of this. But it 
seems to me--and I had an experience last Saturday. I went to 
Lowe's in my old 1982 Bronco to pick up something. It has a new 
engine in it, which I will compare to the pit.
    I came out of Lowe's, and I tried to start the thing, and I 
could get nothing out of the ignition. The battery was okay. I 
could tell that because the lights were on. That is about as 
much as I know about mechanics.
    As it turns out, that old body in the steering column there 
is a part in there that locks the ignition and unlocks the 
ignition and also locks the transmission. And it was broke. And 
I would just like to say that it seems to me that we do need 
the RRW and that hopefully there is some supply of those pits 
that can be used.
    However, the chairman's position is quite clear about 
building a multi-billion-dollar or a billion-dollar-plus 
facility. It is going to be both politically controversial and 
expensive.
    And I think your comment about moving slowly is the right 
one. However, I would also say that I think the complex issue 
that we should go ahead and proceed with RRW before we settle 
the complex issue. I don't think one should be tied to the 
other. I think moving slowly on both of them would be good.
    Let me talk about MOX just a moment. Is it an alternative 
to what we are currently doing?
    Mr. Tobey. The Department looked at literally dozens of 
alternatives in its initial contemplation of this problem. And 
while there are other things that could be done in narrowing 
that field, MOX was found to be the solution that was 
ultimately the lowest cost with the least risk.
    Mr. Everett. The one that I have read recently about 
turning this into glass and storing it--could you explain that 
to me a little bit and why it is not the way to proceed?
    Mr. Tobey. Certainly. Although you may also want to seek 
the views of Mr. Rispoli, who has facilities that are relevant 
to this question.
    It is my understanding that--and this was reported to the 
Congress last October--that of three main possible alternatives 
pursuing the MOX program, vitrification program for simply 
storing the material, MOX was not significantly different than 
the vitrification program, but that it would entail 
substantially less technological and potentially, therefore, 
financial risk. And it was ultimately cheaper than simply 
continuing to store the material.
    Now, there is a relatively small amount of material that 
will be put into glass that is different from MOX and is 
unsuitable for the MOX program. But that----
    Mr. Everett. Impure plutonium?
    Mr. Tobey. Pardon me?
    Mr. Everett. Impure plutonium?
    Mr. Tobey. Impure plutonium, yes. But it is my 
understanding that that process cannot be scaled effectively to 
dispose of the 34 metric tons (MT) of plutonium that we intend 
to dispose of through the MOX program. And I believe Mr. 
Rispoli can give you a more detailed answer on the reasons for 
that.
    Mr. Everett. Please.
    Secretary Rispoli. Congressman Everett, at the Savannah 
River Site, which would be the location to consolidate and 
dispose of this special nuclear material and plutonium, and MOX 
is one component of that. The MOX project is one component. The 
other two components belong within my program.
    And they are a plutonium vitrification facility, which 
would glassify it, as you have referred to. And also we have an 
old 1950's canyon that still operates. It is a very large 
building that would process some smaller amount, much smaller 
amount of plutonium and other special nuclear materials.
    The plutonium vitrification project is a very modest 
project that would actually be installed in the basement of an 
existing building where the material itself is stored. It would 
produce glass cans that are about the size of a Coca-Cola can. 
And these glass cans of plutonium would then be embedded in the 
larger, existing process that vitrifies the other high-level 
waste at the Savannah River Site for eventual disposition at 
the Yucca Mountain repository. So that is the plan for the 13 
metric--up to 13 metric tons that would not be suitable to go 
through the MOX process because of the impurities in it.
    Now, we have looked in the past, as Mr. Tobey said. There 
were dozens of alternatives evaluated. But for the higher 
purity product, in the past there was a look at how could that 
be handled. And it was determined that because of the 
radioactivity levels and the way that these radio nucleis react 
that vitrification would not necessarily be the best approach.
    And it would have to be a completely different concept. In 
other words, we in Environmental Management, were we to handle 
more than that up to 13 metric tons we would likely have to 
design and build an entirely different facility that would take 
plutonium and put it into ceramic pucks for eventual 
disposition. So it would wind up being a completely different 
approach than what we have today.
    Mr. Everett. Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Everett.
    I am happy to yield five minutes to the gentleman from 
Iowa, Mr. Loebsack.
    Mr. Loebsack. Thank you, Madam Chair.
    I need to be brought up to speed on some of these things 
since I am a new member. And I apologize to my fellow members 
here for asking some fairly basic questions.
    But, first of all, why do we call it the Reliable 
Replacement Warhead?
    Mr. D'Agostino. Well, the authorization language gets us 
started in that direction. And I think the actual title is the 
right one.
    The key word--every word is important here. ``Replacement'' 
is important because it denotes that this is not a new warhead, 
some new capability, some new military capability. It is 
actually a replacement of an existing warhead, a warhead that 
the country via the Nuclear Weapons Council and, two, the 
Administration, have deemed as important to maintain in our 
stockpile.
    Now, we could always have a good discussion on size of the 
stockpile and composition of the stockpile. And we should get 
into that discussion, probably not in public like this, but in 
our closed session. But it is the idea that we want to make 
sure that this does not add new capabilities to our nuclear 
deterrent. That is very important.
    ``Reliable'' is a word that can mean many things. But in 
many respects it is to denote that one of the main things that 
concerns us is to reduce the likelihood of underground testing 
for a sustainable deterrent.
    Our current Cold War systems were designed in a completely 
different time. They were designed in a time when we were 
designing and building warheads continually and warheads would 
rarely remain in the stockpile for more than 20 years. We never 
worried about age because we always knew we would be building a 
new one, for example. So that was never a feature.
    And consequently, because of the large numbers of warheads 
and the perceived threat at the time during the Cold War and 
actual threat at the time, we felt the Nation needed large 
numbers and wanted to put out lots of yield. And so, our 
systems were designed with tight margins.
    So we are in a completely different world now. We don't 
want new capabilities. But we want newer warheads. And we want 
to be able to take apart as many warheads as we can that we 
don't need.
    And so, what we want to do is have a warhead that is 
reliable from the standpoint of ensuring that we keep further 
away from underground testing by adding more material, changing 
the design process a little bit. We want to make sure that it 
is reliable from the standpoint of impact on our workforce and 
the environment. We know a lot more now than we did 30 years 
ago on impacts to the environment.
    I will give you a quick example, if I could, if you would 
allow me. What we are doing is a radioactive liquid waste 
treatment facility at Los Alamos. We now have added a feature 
to that facility which didn't exist in the past, of zero liquid 
discharge. We want absolutely no discharge, liquid discharge 
into the environment. It is very important to not only the 
workers in the area, but the Native American tribes that exist 
and kind of encircle the Los Alamos site.
    So these features--pursuing this reliable approach and a 
replacement approach allow us to bring new things in.
    One thing, if I may add, is our security environment has 
significantly changed since the Cold War. We are in a 
completely different situation since 9/11. We are much more 
concerned about, I believe now, about terrorist use or non-
nation state actors acquiring material or warheads themselves.
    And we want to take advantage of this increased space in 
this design area to actually add these features to these 
warheads that will essentially render them like a block of 
wood, if you will, if it was sitting here in the room, useless 
to any one of us if we were a terrorist.
    Mr. Loebsack. Can I just ask another one? As far as 
developing new weapons in the future, obviously we don't know 
what our security environment is going to be like 5 years, 10 
years, 15, 20 years down the line.
    But do you foresee this being the last weapon that is 
developed, the last nuclear weapons developed by the United 
States, at least for quite some time, maybe decades?
    Mr. D'Agostino. Well, this particular design--it is the 
same weapon, but a different design to achieve the same result. 
We have a number of other weapons systems that we would look--
as part of transforming the stockpile itself. The stockpile 
isn't completely transformed until we take all of those other 
weapons systems and use these same concepts to them.
    So we are looking ahead to figure out this is what we need 
to come back to with the details, figure out how quickly can 
we, should we transform the stockpile. Are there actually fewer 
numbers of weapons in the stockpile and in the reserve? Are the 
different types--can we reduce the number of types of warheads 
that we have in the stockpile? I think the answer to all those 
questions is yes.
    The key is getting ourselves the details first, 
communicating the details to you. And in many respects, that is 
why we want to approach transforming the stockpile in kind of a 
sound step by step process with Congress to make sure that what 
we don't do is overstep in any one direction and we are heading 
in the right direction where we have--where we meet the 
President's, and I believe the country's needs to have the 
smallest stockpile consistent with our national security needs.
    Mr. Loebsack. Thank you.
    Mr. D'Agostino. Yes, sir.
    Ms. Tauscher. The gentleman's time is expired.
    I am happy to yield to Mr. Thornberry for five minutes.
    Mr. Thornberry. Thank you, Madam Chair.
    Mr. D'Agostino, we had General Cartwright with us recently. 
And essentially he told us that rather than manage the 
stockpile by inventory, i.e., having huge numbers of weapons so 
that if there is a problem in one, you have a bunch over here 
that you can use, that the approach going forward should be 
RRW, which will have the features you mentioned with safety, 
security, and use control and so forth and also a responsive 
infrastructure so that if a problem is detected, you can get on 
it and fix it and deal with it.
    I guess one of the nagging concerns I have is that in the 
past, infrastructure has been something that has been very 
cyclical. We would spend a lot of money making up, and then we 
would neglect. And so, it was something of a rollercoaster.
    To work the way that General Cartwright described, we can't 
do that in the future. And so, I guess I wonder as you look 
ahead, what sort of discipline is there to make sure that the 
infrastructure--and I don't mean just the buildings, obviously. 
It is the expertise that goes with it.
    What sort of discipline can we build in to make sure that 
we don't go through these cycles, that it stays at a high state 
of readiness so that we can drastically reduce the number of 
weapons and be able to deal with situations that come up?
    Mr. D'Agostino. Sir, that is a very good question. I think 
the discipline starts with defining a vision that is a vision 
for national security, nuclear deterrence that is fairly 
steady, if you will.
    In other words, it is not partisan in nature. It 
transcends, whether Administrations--if once we get past this 
question of whether the Nation will need a nuclear deterrent, 
shouldn't have a nuclear deterrent or not, which is a very 
important question to ask, then it is the question of how do we 
go forward.
    General Cartwright is absolutely correct that we do want 
our deterrent, to the extent that we can, largely resident in 
our infrastructure. And we suffered in the 1990's of 
neglecting, if you will, essentially our production complex, in 
some respects, because of the dramatic changes that have 
happened when the wall came down and incorporating no 
underground testing.
    So the key, I believe, is a vision and a strategy that 
makes sense to the program folks in whatever Administration is 
in charge, makes sense to Congress, who authorizes and 
appropriates, makes sense to the American people and establish 
that stability.
    One of the things that has helped is this discipline of 
square footage, for example, if we are just talking about 
buildings. I forget exactly when, but in the past, Congress 
talked about no increase in square footage and so mandated 
essentially if you are going to build a square foot, then a 
square foot has to come off.
    That has actually helped us quite a bit because it has 
looked at making sure that the amount of capability and 
infrastructure we build is reasonable and responsive because 
when you build a square foot, you have to maintain a square 
foot. There is a life-cycle cost to it.
    We submitted a plan to Congress called our 2030 plan. It is 
the details on February 1st. And it talks to what I have 
described as essentially a one-quarter to one-third reduction 
in square footage while continually exercising our 
infrastructure and our workforce. That is what we need to put 
in details, in effect, and show you exactly how we can reduce 
square footage.
    Mr. Thornberry. So in the five-year budget projections that 
you have given us so far, is this responsive infrastructure or 
the plan that you submitted on February 1st included in there 
yet?
    Mr. D'Agostino. Yes, sir.
    Mr. Thornberry. It is?
    Mr. D'Agostino. Yes, sir, it is. What we decided to do is 
not call out responsive infrastructure as a separate budget 
line or as a separate activity because we want to make sure 
that the program folks, effectively our laboratories and plants 
that have to implement, see responsive infrastructure and 
reducing the size of our footprint on the United States as 
something that is inherent within their program.
    Now, I can point out to you specific areas where it is. And 
given enough time, I will be glad to do that. And if you would 
like, I can do that now.
    Mr. Thornberry. No, that is okay.
    Mr. D'Agostino. Okay.
    Mr. Thornberry. My time is short. Let me just ask you, if I 
can, just one other brief question.
    For a number of years, we have had Life Extension Programs. 
Are those kind of on hold while we sort through the RRW as far 
as at least new Life Extension Programs?
    Mr. D'Agostino. Right now we have two life extensions under 
way. The answer is no, they are not on hold.
    Mr. Thornberry. So we are going to complete what you had 
already planned to do?
    Mr. D'Agostino. I think we will actually be looking at how 
to transition. The life extensions take a number of years. The 
W-76 will take many, many years to go through because of the 
numbers. And what we will do is look at this transition point. 
When we know that RRW is viable and we have congressional 
authorization to proceed, we will look to tail off and 
transition away from life extensions.
    Mr. Thornberry. Okay. Okay, thank you.
    Thank you.
    Ms. Tauscher. The gentleman yields back.
    I am happy to yield five minutes to Mr. Larsen of 
Washington.
    Mr. Larsen. Thank you, Madam Chairwoman.
    Secretary Rispoli, if you could put your Hanford hat on a 
little bit to get you prepped for these questions here. I was 
out a few weeks back visiting the site and well-welcomed by the 
community, well-welcomed by the folks at DOE and enjoyed very 
much the tour I was able to have. The folks are doing a great 
job out there.
    A few concerns came to my mind, though, later on. The first 
question I want to ask you is with now, I think, three acting 
managers at Hanford with some recent retirements, very recent 
retirements and the fact that there are three or four prime 
contracts that will be out for bid on a variety of missions out 
there, how is DOE going to adequately handle the responsibility 
without permanent managers and what are you doing to ensure 
that you are getting--that you will have permanent managers in 
place to be able to handle these procurements?
    Secretary Rispoli. There is no doubt, Mr. Larsen, that that 
is a real challenge for us. I mean, for the Environmental 
Management program, these are two very, very large sites. And 
as you know, the Hanford Reservation from the environmental 
management program in the 2008 budget it is about $2 billion 
going to that location, which is the largest in our complex.
    I think that the bright side of the story is that the 
acting manager behind Roy Schepens, who actually did retire and 
he has responsibility for the Waste Treatment Plant as well as 
the major tank farm, liquid tank waste, is Ms. Shirley Olinger, 
who has been his deputy for quite some time now. She is a very, 
very competent professional. And I have a very high degree of 
confidence in her ability to do this.
    In the meantime, we have an active recruiting process going 
on for the replacement for Mr. Schepens. That is a recruiting 
process that is ongoing right now.
    On the other side of the house, Mr. Keith Kline has not yet 
retired. He is due to retire at the end of May after 34 years 
of stellar Federal service, a fine gentleman. And his deputy, 
Mike Weiss, who perhaps you also know, will be the acting 
manager until we begin that process. We have begun the initial 
paperwork, but we have not yet advertised for his replacement.
    Again, there is no doubt it will be a challenge. But I 
think the bright news is that Shirley Olinger and Mike Weiss 
are not new to the scene. They have both been in their 
respective positions. They know what they are doing. And I have 
a great degree of confidence in their ability.
    Mr. Larsen. Well, that is good to hear because as you go 
through the transition, certainly we want folks working with 
your acting managers to know that they have that confidence 
from above so that the work doesn't get slowed down for any 
reason, any other reason. Let us put it that way.
    Also a few questions about milestones, if I could. Based on 
the 2008 request, your office estimates that approximately 40 
to 50 Federal facility agreements or consent order milestones 
are at risk in fiscal year 2008. And these include milestones 
at Los Alamos, Oak Ridge, Hanford and Savannah River.
    What actions is the Department taking to mitigate the risk 
of missing cleanup milestones, something I know in Washington 
state we watch very closely? And what financial or other 
penalties might the Department face for failing to meet its 
compliance milestones?
    Secretary Rispoli. Well, if I may, as the subcommittee 
members are, I am sure, aware, almost all or all of our cleanup 
efforts involve regulatory agreements with the state, with the 
EPA, with regulatory agencies. And agreements, such as a tri-
party agreement in Washington, or other forms of agreement are 
the norm. And generally they all do have milestones.
    Built into those agreements is the ability to renegotiate 
milestones, to set new milestones and to reprioritize with the 
mutual dialogue of the DOE and the regulator. For example, at 
Hanford when we began that tri-party agreement (TPA), there 
were only about 160 milestones. Today there are 1,400 or so 
milestones. So you can see that it is a living document. The 
number of milestones has changed dramatically.
    There have been 440 changes to those milestones. And we 
have completed 900 of them at a very high success rate. I think 
about 96 percent were met in accordance with the schedule.
    So the way that we look at what we are doing where we know 
that we will miss at some sites lower priority from a risk 
perspective milestones will be for us to re-enter dialogue with 
the regulators in those states.
    And by the way, we have already contacted the regulators in 
all those states to discuss how we can rerack these milestones 
to focus the resources that we have asked for from the Congress 
that the Congress entrusts to us to get the greatest risk 
reduction within the dollars that we have.
    Mr. Larsen. So you have described a process that at the end 
there you kind of came to the answer to the question, that how 
you mitigate those risks is that you are, in fact, right now 
going back to the other parties in your various agreements and 
asking already to renegotiate some of those milestones.
    Secretary Rispoli. Absolutely.
    I would also tell you that I talked with Jay Manning, who 
is the head of the Department of Ecology, often. Our two 
agencies are in dialogue and have been in dialogue toward 
looking at all of the future milestones in any event because, 
as you know, the Waste Treatment Plant, not to do with money, 
but having to do with issues that have arisen, will itself 
cause us to miss a number of milestones on the tank farm and 
the liquid waste side.
    Mr. Larsen. Right.
    Secretary Rispoli. So we already have an ongoing dialogue 
with the Department of Ecology in the State of Washington to do 
exactly that. And we would look at a similar approach with the 
regulators in the other states.
    Mr. Larsen. Madam Chairwoman, I don't want to break 
Secretary Rispoli's stride here. I have one more question on 
Hanford, if I could.
    Ms. Tauscher. Go ahead.
    Mr. Larsen. Thanks.
    And this really bounces off your last point about the Waste 
Treatment Plant. The supplemental technology to Hanford's Waste 
Treatment Plant is needed to treat the high volumes of low-
activity tank waste. In fact, the WTP plant is only designed, I 
think, to deal with half of the low-activity waste.
    And last year the concept of the demonstration bulk vit 
system was pursued for this purpose. DOE recently conducted an 
independent technical review to the proposed design. And no 
funds are requested for this system in the 2008 budget.
    So what findings did DOE make during the Department's 
independent technical review? And does the Department 
anticipate changing course to a different technology to deal 
with the other half of the low-activity waste?
    Secretary Rispoli. Congressman Larsen, that is correct. The 
Waste Treatment Plant is sized to handle 100 percent of the 
high-level waste, but only 50 percent of the low-activity 
waste.
    Since I was sworn in, we have been working under the idea 
that the most likely candidate for supplemental technology 
would be bulk vitrification. We are still working with our 
prime and sub-contractor to attain a successful test of that 
process.
    They have done some engineering scale, one-sixth scale. 
They have a full-size mockup out there I am sure you have seen.
    Mr. Larsen. Yes.
    Secretary Rispoli. But the technical review that we did 
actually found about 19 technical issues. I won't go through 
them. I can certainly provide them for the record. But the one 
that is the most----
    Mr. Larsen. Could you provide those for the record?
    Secretary Rispoli. Yes, sir, I would be happy to do that.
    The one that is most troubling, but I think we expect to 
see whether it can be solved, is that technesium would migrate 
to the surface. And therefore, the whole concept of vitrifying 
the waste into glass would be lost because a contaminant would 
migrate to the surface.
    Now, the contractor has proposed several changes. For 
example, originally they were going to use local, I will call 
it, Hanford dirt to make the glass. And now they are going to 
use an engineered product as you would in a regular Waste 
Treatment Plant. They are changing the formulation and the 
approach to that particular issue. And they plan to do a test 
of that this summer.
    We were able, with the Continuing Resolution--you know, the 
Environmental Management Defense Account had extra funds in it. 
So we were able to provide a small amount to them for the 
current fiscal year to enable them to round out and complete 
that test. We still don't have a--the contractor has still not 
submitted to us a cost and schedule that we can independently 
audit because of these technical issues that still need to be 
resolved.
    I still believe that this bulk vitrification is a viable 
technology. I think that we are in a position where we should 
know shortly whether or not this is the best technology. I 
would point out to you, though, just for the record that the 
cost to build an entire new low-activity Waste Treatment Plant 
with a very mature design is about $3.2 billion in a life cycle 
sense.
    The bulk vit, which is still in a planning phase, is about 
the $2.6 billion range. So the tipping point may not in the end 
be the technology. It may be the cost because you have to cover 
all the safety concerns. You have to protect the workers. You 
have to protect it, you know, from vapors becoming freed. So we 
still have to work through those issues. And it is both 
technology and cost as we go forward to make our decision.
    Mr. Larsen. Okay. Thank you.
    Thank you for your indulgence, Madam Chairwoman.
    Secretary Rispoli. Thank you.
    Ms. Tauscher. You are welcome.
    Mr. Podonsky, I would like to make sure that you have your 
trip to the Hill worthwhile so you can answer some questions 
for us.
    Mr. Podonsky. I have enjoyed the questions so far.
    Ms. Tauscher. They have done a pretty good job. Let us see 
how you do.
    I think the committee and the Congress is generally 
concerned about the increasing cost of compliance with the 2005 
Design Basis Threat. And we have to balance that with growing 
cyber security threats. And I think we are worried about the 
smaller allocation of resources against cyber.
    And considering that this is an unclassified setting--and 
give us a hint if you need to talk to us in a classified 
setting. We are happy to set that up.
    But can you kind of walk us through how the NNSA weighs the 
vulnerabilities associated with the physical threats to the 
complex versus the cyber, and how resources are allocated?
    Mr. Podonsky. The November 2005 Design Basis Threat that 
Deputy Secretary Sell issued first and foremost--and I 
obviously won't go into classified. But first of all, the 
Design Basis Threat is a performance metric at the high end of 
the threat scale. And it is advised by the intelligence 
community (IC) as to the information they have. So it is not a 
threat statement in and of itself, but a metric.
    And what the NNSA has done, as well as the other sites in 
the Department, they have weighed how do we address this policy 
and yet still not cost all the expensive dollars that were 
involved? And part of it is they have partnered with us, HSS, 
in applying new technologies. And I mentioned in my opening 
statement that the technologies are serving as what we call 
force multipliers. So that allows you to not have to increase 
the guard force, which is very expensive to do.
    And as we see in today's environment, an increased guard 
force is no real defense against the tactics of the suicide 
bomber or the truck bomb or the improvised explosive device 
(IED) on the side of the road. So NNSA has deployed a number of 
technologies that we have partnered with them at a number of 
their sites, at Y-12, at Livermore. And we see the security 
costs stabilizing and yet becoming more effective in terms of 
how they manage the risk of the threat.
    One other point I would like to add is that one of the 
things the Department has just now in the last two years 
started to do better--and that is strategize on how to respond 
to the threat. In years past--and we have all seen, I am sure 
the Congress has noticed, the subcommittee has paid attention 
to the number of security incidents at the Department.
    What the Department is doing is changing its strategy so 
that instead of responding, for example, at one of our sites 
like responding to a bank robbery, they are being much more 
tactical and using military tactics. And that is why we also 
have another piece that I would love to talk to this 
subcommittee in a classified setting on the elite force and 
some of the other capabilities.
    But we have seen the NNSA as well as the rest of the 
Department taking a much-needed analytical approach to applying 
security resources and diminishing budgets.
    Ms. Tauscher. The subcommittee will have you in a 
classified setting as soon as we can. I think we are interested 
in understanding how we leverage a static state of gates and 
guards with all kinds of new technology.
    And, Administrator D'Agostino, I know that you are very 
interested in this piece, too.
    Mr. D'Agostino. Yes.
    Ms. Tauscher. And I think we need to have an update for it.
    And I think we also are significantly interested in the 
personnel security issues that have plagued the complex and, 
you know, create embarrassing situations that deteriorate what 
many of us believe is a very heightened sense of security that 
we have in the post-September 11th environment.
    And it is almost counterintuitive that everybody should be 
aware of certainly the optics and the performance against these 
very significant demands to be secure with what we consider to 
be now some people's just complete lack of appreciation for, 
not only how things look, but what the law is and what their 
responsibilities for their job are.
    If you could quickly just talk about the Complex 
Transformation and materials consolidation plans that we would 
hope will help achieve compliance with the DBT.
    Mr. Podonsky. The nuclear material consolidation is 
actually chaired up by Assistant Secretary Rispoli's deputy. 
But I would tell you that from our perspective from an 
independent oversight level in the policy is that this is a 
marked needed change in the Department.
    We saw back during Secretary Watkin's time back in the 
1990's where a consolidation, Congressman Larsen, up in Hanford 
saved tremendous security costs when they consolidated the 
material. And I know that principle assistant deputy secretary 
under Assistant Secretary Rispoli has the consolidation 
committee moving. And they are diligently working.
    I haven't seen the work product to date. But that will make 
quite a difference when you change the footprint of the 
Department, as we saw up at Hanford in 1991.
    Ms. Tauscher. Thank you, Mr. Podonsky.
    Mr. Everett, do you have a second round of questions?
    Mr. Everett. Thank you.
    Mr. D'Agostino, this committee kind of decoupled MOX from 
the Soviet or Russian plutonium disposition plans. Will MOX go 
forward regardless of what the Russians do?
    Mr. D'Agostino. I will answer that and I will ask my deputy 
as well to contribute. I wouldn't go so far to say ``regardless 
of what the Russians are doing.'' It is important that we 
understand the plutonium disposition plans that the Russians 
have. They are looking at a different approach rather than 
the--as I understand it--they are looking at a different 
approach rather than the MOX approach.
    And so, what we plan to do is move forward diligently. I 
think MOX is going to address the 34 metric tons that we are 
concerned about right now. And we are going to pay a fair 
amount of attention to the plan that we get from the Russians 
in addressing exactly their specific strategy.
    Will.
    Mr. Tobey. I would note a couple things.
    First, I think there are good reasons to move forward with 
the MOX program for our own reasons, for U.S. reasons. Once 
this material is disposed of, 34 metric tons of plutonium, we 
will under no circumstances be susceptible to diversion to 
terrorism or other proliferation-related concerns.
    Second, we will avoid the costs associated with continuing 
to store the material, which over a 50-year life cycle--and 
that is the sort of time scale you have to consider when you 
are talking about plutonium--is the most expensive of all the 
alternatives.
    And third, it will allow the Department to continue with 
some of the consolidation efforts that others have alluded to 
here.
    I think with respect to Russia and their plan, something I 
would note would be a point that I believe Secretary Bodman 
made that while there can't be an absolute guarantee that 
proceeding with the U.S. MOX program will guarantee that the 
Russians will fulfill their commitment, we know that not 
proceeding with the U.S. program will only diminish the chances 
that Russia will pursue its program. And we also believe that 
it is very important for Russia to dispose of its 34 metric 
tons of plutonium for important non-proliferation reasons.
    Mr. Everett. This has been going on a number of years, 
though. Do we have any indication why Russia is not moving 
forward, other than the fact that as usual there are technical 
difficulties?
    Mr. Tobey. I think the reasons for that have probably 
changed over the years. I think Russia has changed its ideas 
about what exactly it wants to do with that material. I was in 
Moscow last week with Deputy Secretary Sell. And we pressed 
them very hard on their disposition program.
    They have, I think, for the first time begun to talk about 
alternatives that we think are technically and financially 
credible and given an indication that Russia would be willing 
to pay a substantial portion of the costs.
    So while I completely understand there is legitimate 
frustration with the pace of progress in Russia, I am hopeful 
that some of the signs that we saw may indicate that Russia is 
willing to move forward.
    Mr. Everett. Secretary Rispoli, what constraints or 
agreements exist with states, specifically South Carolina, 
Washington, and Idaho, for long-term plutonium storage?
    Secretary Rispoli. The agreements that we have with the 
State of South Carolina--and some of these are even stronger 
than agreements--are that any plutonium that we bring into the 
state has to have a disposition path. And as I mentioned 
earlier, the current plan is that MOX would handle the material 
that these two gentlemen have discussed.
    In my program, we have this small scale plutonium 
vitrification facility that would handle up to 13 metric tons 
and some other miscellaneous materials that would go through 
this H-Canyon. I think actually one of the greatest impacts on 
the state as well as the Nation would be that if we had to 
regroup at this point and go back and look at other 
technologies other than MOX such as the ceramic pucks that I 
talked about earlier, we would set back the disposition of 
plutonium in the state by probably at least 4 to 6 years and 
extend the processing life by 10 to 15 years more.
    And it is even further complicated because it is not clear 
that those ceramic pucks that we would have that we would have 
enough other waste to put them into to protect that product 
from a proliferation risk. So there are many, many issues that 
make this very, very complex. And I think that right now the 
plan that we have with MOX doing the 35 metric tons, the 
plutonium vit plant doing 13 metric tons and the H-Canyon doing 
the smaller amounts is a very viable plan.
    And, again, it is driven by technology. But it is also 
driven by the reality that we would set all of this back many, 
many years if we don't press on with solving this problem.
    Mr. Everett. Thank you, Madam Chairwoman.
    Ms. Tauscher. Mr. Thornberry.
    Mr. Thornberry. Actually I was interested in the questions 
along the same line. But let me move to the other Material 
Protection, Control, and Accounting (MPC&A) program.
    Have you seen a change in attitude by the Russians on our 
cooperative efforts in the past few years? Are they becoming 
less willing to cooperate with us? Or are they happy to take 
whatever as long as we pay for it?
    Mr. Tobey. I think the most significant change I would 
point to was the one that resulted in the Bratislava Accord 
between Presidents Bush and Putin, which added several 
facilities to the list of facilities that we are doing work on 
and also accelerated our progress so that we would finish it by 
2008.
    We have also noted there were several facilities that 
Russia has now agreed for us to do work on that is reflected in 
our fiscal year 2007 supplemental request. I think to some 
extent that reflects a recognition on the Russians' part that 
our work will be coming to a close and that it is important 
that we get it all done on time, consistent with Bratislava.
    The final thing that I would add is that the Russians are 
pretty candid about--at least they have been with me--about how 
during the 1990's they faced a situation of severe need of 
humanitarian requirements to keep people from doing things that 
weren't in our interests. But things have changed in Russia 
now. And they want to be seen and really should be treated as 
partners rather than beneficiaries.
    Mr. Thornberry. So are you satisfied with the level of 
cooperation Russia's shown us and specifically in MPC&A?
    Mr. Tobey. I would say generally satisfied. That doesn't 
mean that there aren't points of difference. And we fairly 
aggressively try and pursue U.S. interests. But on the whole, 
our interests are aligned with those of Russia in terms of 
securing materials.
    Mr. Thornberry. Getting back a little bit to the chair's 
question, if you could have any amount of money to spend on 
non-proliferation, how would you spend it now to reduce the 
chance of a nuclear weapon getting in the wrong hands?
    Mr. Tobey. Well, as you know, of course, I do support the 
President's budget. But I would answer your question in two 
ways. Empirically where we have chosen to increase the budget 
through supplemental requests, we have focused on the Global 
Threat Reduction Initiative, which allows us to recover 
radiological sources throughout the world and also to refuel 
reactors with low enriched uranium and also some of our 
megaports programs, which is a second line of defense.
    Maybe if I could add a strategic layer to that, I would say 
that most of our programs, as you know, were designed to deal 
with the threat from the former Soviet Union. That work, I 
think, was well-conceived and is generally well-executed. But 
in some cases, in most cases, it is coming to an end where we 
are achieving what we set out to do.
    At the same time, we need to face emerging threats. And 
those threats now come from places largely outside of the 
former Soviet Union. And the programs that are most suitable 
for dealing with those threats are the ones that I earlier 
referred to.
    Mr. Thornberry. So the two programs we have that you have 
mentioned you think are the best place for us to spend our 
efforts now as the former Soviet Union efforts trail off?
    Mr. Tobey. I think that is right. I think the Global Threat 
Reduction Initiative conducts important work outside the former 
Soviet Union. And the same is true with second line of defense.
    Mr. Thornberry. Okay. I hope you all are thinking of all 
possibilities. Obviously, you know, I think most all of us 
would agree there is no more important thing our Federal 
Government could do than to prevent a nuclear weapon from 
getting in the wrong hands. And I just hope we are looking at 
it in a broad fashion.
    Let me just go back to MOX for just a second because I was 
trying to remember, I thought I had seen some sort of press 
report, and I have got some reference here to some internal DOE 
memo that says vitrification could be built at--there would be 
significant cost savings to vitrify it all rather than do the 
MOX facility. Does that ring any bells?
    Mr. Tobey. Yes, I believe that that refers to the 
vitrification process that Mr. Rispoli was referring to, which 
to summarize what maybe we both have said----
    Mr. Thornberry. Just the leftovers, not the whole----
    Mr. Tobey [continuing]. Is a much smaller scale process 
applying to up to 13 tons. And I would note that I believe that 
they actually hope to do as much as possible through MOX.
    Mr. Thornberry. Okay.
    Mr. Tobey. And that it is not scalable to them.
    Mr. Thornberry. If I could just make a closing request. I 
think you all have outlined very well multiple considerations 
for MOX, including the political situation, cost, all the 
alternatives. Just let none of us delude ourselves that we are 
somehow going--we are going to cause the Russians to take some 
step that is not in their national interest. It may be in our 
national interest to go ahead with MOX as planned. It may not 
be.
    We need to be wide-eyed about the costs. But one of the 
disadvantages of being around here for a while is you remember 
when we--things, the reason we started it was to lock arm in 
arm with the Russians so that we would march down this path 
together to dispose of an equal amount of plutonium. And the 
fact is they ain't playing. And they don't intend to play.
    Now, I don't know, you all may know, exactly what path they 
want to get across. But I think it is very important for us to 
look at what is in our national interest and not pretend that 
we are doing something that will influence the Russians when 
they are, I think, clearly going to do whatever they think is 
in their national interest.
    Now, we might shade that a little bit if we paid enough of 
the bill. But I just encourage you to be wide-eyed and candid 
in talking with us about it. Because, as I say, some of us are 
old enough to remember how this thing started.
    Thank you, Madam Chair. I yield back.
    Ms. Tauscher. And some of us are even older, Mr. 
Thornberry.
    I just want to highlight what Mr. Thornberry is saying. I 
can remember that we settled on MOX, at least at the moment, 
because that is what the Russians, we believed, were going to--
that is where they were going to play. And at that time also 
they needed our financial help. And I think we all understand 
now that Russia has had a phenomenal energy windfall and no 
longer have to be on scholarship for this program.
    But apparently even the fact that they have got their own 
money and we settled on something that they wanted to do in 
MOX, they still don't want to play. And I think Mr. Thornberry 
and I think the committee generally feels as if we need to do 
this for ourselves. And although this was not only a 
cooperative issue, this was what we believed to be an increased 
opportunity for security because we were particularly worried 
about Russian plutonium. We still have those concerns. We still 
have problems of our own that we have to finish.
    I am going to take this time to close the hearing. It is 
11:30.
    I want to first of all thank Administrator D'Agostino, 
Secretary Rispoli and Mr. Podonsky. Your written testimony was 
very comprehensive. We appreciate getting it on time.
    Mr. Tobey, the White House has called. They would like you 
to stay on the Hill and testify about the budget for the rest 
of the day in numerous other committees. [Laughter.]
    They appreciate your comments. But we are happy to have you 
here. We appreciate all the work you do in non-proliferation.
    And we are happy to have the many young leaders here from 
the NNSA. And we thank you all for being here.
    I do believe we are going to take you up on the offer, 
specifically Mr. Podonsky and Mr. D'Agostino, to have some 
classified hearings in the next few weeks, briefings in the 
next few weeks on those issues that we touched upon.
    And this hearing of the Strategic Forces Subcommittee is 
adjourned.
    [Whereupon, at 11:33 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 20, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 20, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7319.001
    
    [GRAPHIC] [TIFF OMITTED] T7319.002
    
    [GRAPHIC] [TIFF OMITTED] T7319.003
    
    [GRAPHIC] [TIFF OMITTED] T7319.004
    
    [GRAPHIC] [TIFF OMITTED] T7319.005
    
    [GRAPHIC] [TIFF OMITTED] T7319.006
    
    [GRAPHIC] [TIFF OMITTED] T7319.007
    
    [GRAPHIC] [TIFF OMITTED] T7319.008
    
    [GRAPHIC] [TIFF OMITTED] T7319.009
    
    [GRAPHIC] [TIFF OMITTED] T7319.010
    
    [GRAPHIC] [TIFF OMITTED] T7319.011
    
    [GRAPHIC] [TIFF OMITTED] T7319.012
    
    [GRAPHIC] [TIFF OMITTED] T7319.013
    
    [GRAPHIC] [TIFF OMITTED] T7319.014
    
    [GRAPHIC] [TIFF OMITTED] T7319.015
    
    [GRAPHIC] [TIFF OMITTED] T7319.016
    
    [GRAPHIC] [TIFF OMITTED] T7319.017
    
    [GRAPHIC] [TIFF OMITTED] T7319.018
    
    [GRAPHIC] [TIFF OMITTED] T7319.019
    
    [GRAPHIC] [TIFF OMITTED] T7319.020
    
    [GRAPHIC] [TIFF OMITTED] T7319.021
    
    [GRAPHIC] [TIFF OMITTED] T7319.022
    
    [GRAPHIC] [TIFF OMITTED] T7319.023
    
    [GRAPHIC] [TIFF OMITTED] T7319.024
    
    [GRAPHIC] [TIFF OMITTED] T7319.025
    
    [GRAPHIC] [TIFF OMITTED] T7319.026
    
    [GRAPHIC] [TIFF OMITTED] T7319.028
    
    [GRAPHIC] [TIFF OMITTED] T7319.029
    
    [GRAPHIC] [TIFF OMITTED] T7319.030
    
    [GRAPHIC] [TIFF OMITTED] T7319.031
    
    [GRAPHIC] [TIFF OMITTED] T7319.032
    
    [GRAPHIC] [TIFF OMITTED] T7319.033
    
    [GRAPHIC] [TIFF OMITTED] T7319.034
    
    [GRAPHIC] [TIFF OMITTED] T7319.035
    
    [GRAPHIC] [TIFF OMITTED] T7319.036
    
    [GRAPHIC] [TIFF OMITTED] T7319.037
    
    [GRAPHIC] [TIFF OMITTED] T7319.038
    
    [GRAPHIC] [TIFF OMITTED] T7319.039
    
    [GRAPHIC] [TIFF OMITTED] T7319.040
    
    [GRAPHIC] [TIFF OMITTED] T7319.041
    
    [GRAPHIC] [TIFF OMITTED] T7319.042
    
    [GRAPHIC] [TIFF OMITTED] T7319.043
    
    [GRAPHIC] [TIFF OMITTED] T7319.044
    
    [GRAPHIC] [TIFF OMITTED] T7319.045
    
    [GRAPHIC] [TIFF OMITTED] T7319.046
    
    [GRAPHIC] [TIFF OMITTED] T7319.047
    
    [GRAPHIC] [TIFF OMITTED] T7319.048
    
    [GRAPHIC] [TIFF OMITTED] T7319.049
    
    [GRAPHIC] [TIFF OMITTED] T7319.050
    
    [GRAPHIC] [TIFF OMITTED] T7319.051
    
    [GRAPHIC] [TIFF OMITTED] T7319.052
    
    [GRAPHIC] [TIFF OMITTED] T7319.053
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 20, 2007

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. The 2007 National Defense Authorization Act placed 
limitations on the availability of some funds for the Waste Treatment 
and Immobilization Plant at Hanford, based on two conditions: first, 
that no more than 90% of the funds may be used until the secretary 
certifies that the DCMA has recommended the earned value management 
system for acceptance; and second, no funds may be used for procurement 
of critical equipment for the High Level Waste Facility or Pretreatment 
facility until the secretary certifies that the final seismic and 
ground motion criteria have been approved.
    What progress has been made to date on these two requirements? Will 
both be met in time to avoid the consequences of the funding 
limitations?
    Secretary Rispoli. The Department is working toward certification 
of the Earned Value Management System (EVMS) by the end of FY 2007. In 
November 2006 the Defense Contract Management Agency (DCMA) conducted a 
certification audit of the Waste Treatment and Immobilization Plant 
(WTP) EVMS and identified eight findings. In February 2007 the WTP 
contractor, Bechtel National, Inc. (BNI), submitted their Corrective 
Action Plan to DCMA. In March 2007 DCMA indicated that, with minor 
revisions, the Corrective Action Plan resolves 7 of the 8 findings. For 
the 8th, there are issues which must be addressed between the agencies.
    To address this issue, the Department has engaged an independent 
external private firm (Tecolote Research, Inc), to assist in the 
resolution process. Tecolote Research, Inc., is a nationally recognized 
firm that specializes in EVMS training and evaluation in accordance 
with the national standard for EVMS (American National Standards 
Institute/Electronic Industries Alliance Standard 748-98, Earned Value 
Management Standards, May 1998). In May 2007, this firm completed an 
evaluation of the contractor's EVMS and indicated the Corrective Action 
Plan, with one minor revision, was acceptable in addressing the 
Corrective Action Requests. Further, based on the contractor completing 
necessary actions to implement the Corrective Action Plan, the firm 
estimated they could recommend acceptance of the contractor's EVMS by 
July 2007. While the Department continues to follow the language in the 
FY 2007 National Defense Authorization Act and work toward 
certification using DCMA, we believe that there is a fundamental 
difference in thinking that cannot be overcome by the statutory 
deadline.

Final Seismic and Ground Motion Criteria

    In FY 2005 construction of the High-level Waste (HLW) and 
Pretreatment (PT) facilities was curtailed due to concerns raised by 
the Defense Nuclear Facilities Safety Board (DNFSB) about seismic 
design criteria for the facility resulting from identification of 
sedimentary interbeds within the basalt framework. In response to these 
concerns, and to ensure conservatism in design, on an interim basis, 
DOE increased the ground motion criteria for seismic design by 40 
percent to account for ground motion uncertainties. DOE subsequently 
incorporated this revised ground motion (RGM) in the structural design 
criteria for the WTP.
    DOE retained the U.S. Army Corps of Engineers to oversee the 
drilling of one corehole and three deep boreholes, below the WTP 
Project construction site, to conduct testing to confirm the 
geophysical properties of the layers of bedrock below the WTP. A final 
report is scheduled for summer 2007 concerning the margin of 
conservatism in the revised ground motion criteria used for the WTP 
design.
    Ms. Tauscher. A supplemental technology to Hanford's WTP is needed 
to treat high volumes of low-activity tank waste. Last year, the 
concept of a Demonstration Bulk Vitrification System was being pursued 
for this purpose, and DOE recently conducted an independent technical 
review of the proposed design. No funds are requested for this system 
in the FY 2008 budget.
    What findings did DOE make during the Department's independent 
technical review of the proposed design for the system?
    Secretary Rispoli. The independent technical review of the 
Demonstration Bulk Vitrification System (DBVS) found no fatal flaws 
(i.e., issues which could not be resolved), but 19 technical issues 
were identified that could result in a failure of the DBVS to satisfy 
mission or safety requirements unless addressed; 26 areas of concern 
were also identified which could result in a change to design or 
require additional testing; and 13 suggested improvements were 
identified. These results have been documented in a report (RPP-31314, 
issued September 28, 2006), and are available as a public document at 
(http://www.hanford.gov/orp/uploadfiles/DBVS-ERP%20Final%20Report.pdf).

    The key findings can be summarized as follows:

      <bullet>  additional cold testing is needed to underpin design 
and operations before radioactive feed is introduced;
      <bullet>  the mixer-dryer and off-gas systems need special 
attention in the next project phase, as most of the project has focused 
on the in-container vitrification process;
      <bullet>  system complexity should be reduced to enhance 
operability and availability;
      <bullet>  process sampling and monitoring plans should be 
improved to assure that essential operational and needed R&D data from 
test runs are captured;
      <bullet>  a better understanding of the process flowsheet 
chemistry is critical to reliability, troubleshooting and recovery from 
problems during operation;
      <bullet>  the feed compositions to be tested should reflect the 
spectrum of wastes expected to be processed by bulk vitrification so 
that comparison to other supplemental treatment alternatives can be 
made;
      <bullet>  potential nuclear safety issues, including confinement 
strategy, implementation of Integrated Safety Management, and response 
to off-normal events, need to be resolved before startup of radioactive 
waste processing;
      <bullet>  bulk vitrified waste needs to ensure that designs and 
specifications meet the required codes and standards; and
      <bullet>  the process to identify and manage risks should be 
improved and effectively utilized in future stages of the project.

    A response plan has been developed and is currently being 
implemented to address the areas of concern and suggested improvements.
    Ms. Tauscher. A supplemental technology to Hanford's WTP is needed 
to treat high volumes of low-activity tank waste. Last year, the 
concept of a Demonstration Bulk Vitrification System was being pursued 
for this purpose, and DOE recently conducted an independent technical 
review of the proposed design. No funds are requested for this system 
in the FY 2008 budget.
    Does the Department anticipate changing course to a different 
technology?
    Secretary Rispoli. The Department is preparing a system study which 
will evaluate the potential for two other proposed technologies to 
assist with the immobilization of the low-activity fraction waste. 
These two technologies are cast stone and steam reforming. With the 
completion of this study and additional field tests to be completed for 
the Demonstration Bulk Vitrification System in the summer 2007, and the 
completion of a National Environmental Policy Act Environmental Impact 
Statement, the Department will determine its preferred alternative 
future technologies to be pursued.
    Ms. Tauscher. If the President's budget request for EM for FY 2008 
is approved, both the Savannah River Site and the Hanford Site might be 
unable to meet cleanup milestones agreed upon with their respective 
states.
    What financial or other penalties might the Department face for 
failing to meet these compliance milestones?
    Secretary Rispoli. The President's budget request will allow the 
Department to meet all enforceable milestones due at the Savannah River 
Site in FY 2008. At Hanford, the Department's funding priority is to 
meet the technical and management challenges posed by construction of 
the Waste Treatment and Immobilization Plant. The proposed funding 
allocation at Hanford may place some milestones at risk. The Department 
is reviewing work plans and working with the State of Washington to 
look for efficiencies that will allow it to meet all of its regulatory 
commitments.
    Ms. Tauscher. If the President's budget request for EM for FY 2008 
is approved, both the Savannah River Site and the Hanford Site might be 
unable to meet cleanup milestones agreed upon with their respective 
states.
    What efforts is the Department making to mitigate this risk?
    Secretary Rispoli. The President's budget request will allow the 
Department to meet all enforceable milestones due at the Savannah River 
Site in FY 2008. At Hanford, the Department's funding priority is to 
meet the technical and management challenges posed by construction of 
the Waste Treatment and Immobilization Plant. The proposed funding 
allocation at Hanford may place some milestones at risk. The Department 
is reviewing work plans and working with the State of Washington to 
look for efficiencies that will allow it to meet all of its regulatory 
commitments.
    Ms. Tauscher. The Defense Nuclear Facilities Safety Board recently 
sent a letter expressing concern over incomplete status of the 
geotechnical site evaluation for the Salt Waste Processing Facility at 
the Savannah River Site as the program nears Milestone-2.
    What is the Department doing to address the Safety Board's 
concerns?
    Secretary Rispoli. In the February 9, 2007, Assistant Secretary for 
Environmental Management's response to the Defense Nuclear Facility 
Safety Board (DNFSB), he noted that the preliminary design of the Salt 
Waste Processing Facility (SWPF) must provide a sound basis for the 
final design. Further, he stated DOE would not proceed with the next 
Critical Decision until the geotechnical and structural issues were 
adequately resolved. Actions taken to address the issues have included 
the strengthening of the contractor's geotechnical and structural 
engineering capabilities by the hiring of recognized technical experts. 
Additionally, DOE acquired its own technical experts. Finally, DOE 
directed the contractor to perform the geotechnical engineering 
analysis of the SWPF using existing site methodologies. These actions 
have been completed and the Department briefed the DNFSB on May 9, 2007 
on the revised structural and analysis approach. On May 11, 2007, the 
Department transmitted a letter to the DNFSB requesting that it 
acknowledge that the work to date sufficiently addresses the concerns 
of the January 2007 DNFSB letter to proceed with final analyses and 
design.
    Ms. Tauscher. How has the interaction between the Safety Board and 
DOE changed as a result of lessons learned from the Hanford Waste 
Treatment Plant?
    Secretary Rispoli. One of the key facility safety issues identified 
by the Defense Nuclear Facilities Safety Board (DNFSB) on the Waste 
Treatment Plant (WTP) was whether the design was sufficiently robust to 
accommodate uncertainties in seismic design criteria. One of the 
mechanisms instituted there to address that uncertainty was 
establishment of a peer review team that reviewed the development of 
seismic design criteria and structural design, to assist in dialogue 
with the DNFSB to address their concerns with the WTP. That team 
consisted of members recognized by the DNFSB as national experts in 
this area. Some key technical experts who are members of that peer 
review team were brought in as technical experts on the Department's 
Salt Waste Processing Facility (SWPF) at the Savannah River Site. DOE 
established weekly phone calls with DNFSB staff, involving these key 
experts, to ensure that interactions between the two agencies promoted 
a prompt path forward for resolution of the DNFSB issues with the SWPF.
    In the Conference Report supporting the FY 2007 National Defense 
Authorization Act, DNFSB and DOE were tasked to prepare a joint report 
to the congressional defense committees on ways to improve timeliness 
of issue resolution. That effort has promoted enhanced dialogue between 
DOE and DNFSB staff to identify ways to improve DNFSB identification of 
issues related to safety during the design process, communication of 
those issues to DOE, and management and closure of the issues. The 
staffs meet on at least a biweekly basis and are using that opportunity 
to look at other enhancements in DNFSB and DOE interaction. The report 
that will document these improvements is expected during the summer of 
2007. In the interim, the DNFSB is to prepare a quarterly report to the 
same congressional committees to identify and report the status of 
significant unresolved issues. To provide DNFSB an update on the 
actions being taken to address issues it identified in its first 
report, DOE briefed DNFSB staff on April 26, 2007.
    Ms. Tauscher. Savannah River Site (SRS) has agreed to accept and 
process 34 metric tons of excess plutonium for the Department as part 
of the 2000 Fissile Materials Disposition Agreement between the U.S. 
and Russia. Beyond the 34 metric tons, DOE stores additional quantities 
of surplus plutonium at Lawrence Livermore National Laboratory, Los 
Alamos National Laboratory, and Hanford as well as SRS.
    Please describe DOE plans for consolidation of surplus plutonium 
currently stored throughout the complex, including a description of:
    a. the facilities, existing or planned, necessary to dispose of the 
34 metric tons of plutonium covered by the 2000 Fissile Materials 
Disposition Agreement; and
    b. the facilities, existing or planned, necessary to dispose of the 
surplus plutonium stored throughout the complex but not covered by the 
2000 Fissile Materials Disposition Agreement (i.e., over and above the 
34 metric tons).
    Secretary Rispoli. The Nuclear Materials Disposition and 
Consolidation Coordination Committee (NMDCCC), chartered by the 
Secretary to address the Department's critical nuclear material 
consolidation and disposition issues, has completed an Implementation 
Plan for Consolidation and Disposition of Surplus Weapons-Usable 
Plutonium. That plan recommends consolidating all of Hanford's surplus, 
non-pit, weapons-usable plutonium-239, and some of the plutonium-239 
currently stored at the Los Alamos and Lawrence Livermore National 
Laboratories, to the Savannah River Site (SRS), subject to review under 
the National Environmental Policy Act (NEPA), and compliance with other 
application law. The proposed consolidation of this material to SRS 
would reduce the risk posed to our workers, the public and the 
environment by continued storage at Hanford and elsewhere; enhance 
security by having fewer storage locations; and result in avoiding the 
expenditure of about $200 million at Hanford for construction of a new 
storage facility that complies with the latest security requirements 
and an additional $70 million a year thereafter to operate that 
facility and provide security. Activities to accomplish the 
implementation plan are reflected in our fiscal year 2008 congressional 
budget request; however, final decisions regarding consolidation have 
not yet been made and will be subject to review under NEPA and 
compliance with applicable law.
    The 34 metric tons of plutonium covered by the 2000 Fissile 
Materials Disposition Agreement are currently planned to be disposed of 
using the Mixed-Oxide (MOX) Fuel Fabrication Facility, the Pit 
Disassembly and Conversion Facility, and the Waste Solidification 
Building, which facilities are planned to be constructed and operated 
at SRS, to fabricate MOX reactor fuel for use in commercial nuclear 
power plants.
    Under DOE's proposed approach, which is subject to review under 
NEPA, the surplus plutonium not covered by the 2000 Fissile Materials 
Disposition Agreement is currently planned to be immobilized using the 
proposed small-scale Plutonium Disposition project at SRS and by 
processing in the H-Canyon facilities currently operating at SRS. 
Subject to review under NEPA, up to 13 metric tons of surplus, non-pit, 
weapons-usable plutonium would be vitrified. Of this 13 metric tons of 
surplus plutonium, approximately two metric tons would be disposed of 
by processing in the H-Canyon, then vitrified through the Defense Waste 
Processing Facility.
    DOE is also currently evaluating the cost and technical feasibility 
of alternatives (including increased quantities of plutonium being 
processed through MOX and H-Canyon) that would reduce or possibly 
eliminate the need for the small-scale Plutonium Vitrification process.
    Ms. Tauscher. How would those plans change if the MOX facility at 
SRS is not constructed?
    Secretary Rispoli. If the MOX facility is not constructed, then: 
(1) U.S. national security and non-proliferation objectives would not 
be met, (2) U.S. obligations under the 2000 U.S.-Russia Plutonium 
Management and Disposition Agreement would not be met, (3) Russia would 
not be encouraged to dispose of its surplus weapons plutonium, and (4) 
upgrades would be needed at Pantex to continue to store the surplus 
nuclear weapons pits.
    DOE currently plans to disposition surplus weapons usable (pit and 
non-pit) plutonium through the MOX Fuel Fabrication Facility (MOX), 
proposed Plutonium Vitrification Disposition Facility and H-Canyon 
facilities. All of the surplus plutonium in pits and some of the non-
pit plutonium would be dispositioned in MOX. If the MOX facility is not 
constructed at SRS, DOE would likely plan to continue to store surplus 
nuclear weapons pits. Continued storage of pits at Pantex would require 
construction and operation of additional storage facilities to support 
a larger than anticipated pit inventory and would also require security 
upgrades to existing facilities that will cost approximately $75 
million. In addition, the U.S. Treasury would forego approximately two 
billion dollars in revenues (in constant 2006 dollars) from the sale of 
MOX fuel and low-enriched uranium derived from nuclear weapon pits.
    Ms. Tauscher. Can you elaborate on the sorts of reductions made 
possible by risk management and technology?
    Mr. Podonsky. Risk management is an integral component to managing 
the implementation of the Design Basis Threat (DBT). Two of the more 
prominent examples of risk management include: avoiding the expenditure 
of security funds on facilities with a limited life-span, and 
attempting to implement the DBT on antiquated facilities. The closure 
of facilities through the disposition of material represents the most 
effective means of managing safeguards and security costs. Therefore, 
rather than fully implementing the DBT and possibly impacting closure 
activities, security funding can be appropriately allocated based on 
the projected life-cycle of the facility (e.g., Sandia National 
Laboratories). Likewise, rather than attempting to retrofit antiquated 
facilities, which typically require manpower-intensive solutions with 
significant capital and recurring costs, the Department is pursuing 
technology based security solutions (e.g., Highly Enriched Uranium 
Materials Facility at Y-12) that fully integrate security in the 
operational design.
    We expect that the deployment of innovative security technologies 
will continue to help DOE, including NNSA, sites reduce the need to 
hire additional manpower resources to protect Departmental facilities. 
We also expect these deployments to make the existing security forces 
more survivable and effective, offering the potential for additional 
cost avoidances. For example, long range detection and assessment 
technologies such as radar and thermal scanning systems have proven to 
be more effective at detecting an approaching adversary than the 
current method of using roving patrols. Deploying these technologies 
reduces the potential for protective force perimeter patrol casualties 
and mitigates the need to hire additional patrols to perform the same 
function to mitigate the 2005 DBT. The added flexibility in response 
time provided by the advanced detection and assessment systems also 
permits employees to be safely evacuated from vaults in a timely manner 
so that active denial capabilities can be engaged to prevent an 
adversary from accomplishing its mission. These system modifications, 
integrated with the site's training, tactics and procedures, are 
expected to make the defensive posture of sites less sensitive to 
future fluctuations in the DBT.
    Ms. Tauscher. Is the NNSA continuing to employ such techniques to 
further refine actions required to reach compliance with the 2005 DBT?
    Mr. Podonsky. Yes. HSS is working closely with NNSA to deploy the 
latest available security technologies in a manner that is expected to 
result in continued cost avoidances as they work to mitigate the 2005 
DBT. Examples of technologies being explored include remotely-operated 
weapon systems to improve the effectiveness and survivability of 
protective forces, vehicle barrier and detection systems positioned at 
locations outside of current protected areas at SNM facilities and 
protective forces outside to extend the standoff distance, and armored 
vehicles equipped with externally mounted weapons that are controlled 
from within the vehicle, providing protection to the protective force 
while engaging potential adversaries away from their intended target. 
Risk management is an integral part of selecting the appropriate 
technologies and optimizing the balance between system effectiveness 
and recurring costs, and we expect that NNSA will continue to practice 
good risk management techniques in the effort to mitigate the 2005 DBT.
    Ms. Tauscher. What plans, if any, does DOE have to revisit the 2005 
DBT?
    Mr. Podonsky. The Department's DBT Policy is reviewed on an annual 
basis, or sooner if there are significant changes in the threat 
environment. The DBT Task Force recently completed an extensive review 
of the DBT, which resulted in a January 2007 decision by the Deputy 
Secretary to maintain the 2005 DBT as the long-term security planning 
metric for the Department.
    Ms. Tauscher. How does NNSA weigh the vulnerabilities associated 
with the physical security of the weapons complex on the one hand, and 
the cyber security of the complex on the other?
    Mr. Podonsky. Potential consequences are at the heart of our 
vulnerability assessment of the threats confronting NNSA. Our first 
priority has been, and will remain, to protect against the loss or loss 
of control of nuclear weapons and Special Nuclear Material (SNM). The 
consequences associated with the loss of control over these assets 
would be so dire to our national security that they clearly justify the 
large investments in physical and cyber security necessary to implement 
and maintain protection programs to defeat the most determined 
adversary. We understand the need to provide strong security for the 
diverse activities and information resident in NNSA operations. While 
no security program can ever be ``unbreakable,'' NNSA is confident that 
it is addressing worst-case vulnerabilities and that the security 
programs, both physical and cyber, remain capable of providing the 
levels of security demanded by our national security mission.
    The security program requirements for physical and cyber are 
determined largely by Departmental policy developed in response to 
vulnerability assessments conducted by the NNSA programs. This 
assessment information is integrated, consolidated and quantified, 
where possible, to facilitate analysis of the threat and provide 
insight into risks to our physical and cyber security postures. 
Prioritization of investments to address high-risk vulnerabilities is 
accomplished annually, first by the physical and cyber security program 
managers in light of DOE and NNSA program guidance and multi-year 
program plans. Then, integrated corporate priorities are established in 
the annual Programming phase of NNSA's Planning, Programming, Budgeting 
and Evaluation process, where all NNSA program priorities are evaluated 
and balanced within our five-year funding targets.
    Ms. Tauscher. How does NNSA prioritize its investment in physical 
and cyber security?
    Mr. Podonsky. Physical and cyber security are two separate 
subprograms within the Safeguards and Security GPRA Unit and managed 
separately by NNSA's Associate Administrator for Defense Nuclear 
Security and the NNSA's Chief Information Officer. Prioritization of 
investments for these programs is accomplished by the individual 
program managers with respect to DOE/NNSA program guidance and multi-
year program plans. Integrated corporate priorities are established in 
the annual programming phase of NNSA's Planning, Programming, Budgeting 
and Evaluation process, where all NNSA program priorities are evaluated 
and balanced within our five-year funding targets.
    Using a risk management approach, NNSA makes its investment 
decisions on the basis of the potential adverse consequences associated 
with the assets being protected. This ``graded'' approach works to 
ensure that assets with the highest adverse consequences from loss, 
such as the loss of control of a nuclear weapon, receive the resources 
needed to provide the highest level of security. While mitigation of 
adverse consequences has been the backbone of our prioritization 
approach, NNSA continues to balance the risks to information and cyber 
security against the heavy demands of physically protecting nuclear 
assets. This balanced approach ensures that the necessary funding is 
applied to all security programs, to provide the highest levels of 
security.
    Ms. Tauscher. NNSA plans for fissile materials disposition have 
slowed in recent years, first as a liability dispute between the U.S. 
and Russia delayed work, and more recently as Congress has expressed 
reservations about proceeding with construction of the MOX Fuel 
Fabrication Facility at the Savannah River Site (SRS). When does the 
NNSA currently plan to begin construction of the MOX facility?
    Mr. D'Agostino. The Revised Continuing Appropriations Resolution, 
2007, Public Law 110-5, prohibits the Department from making available 
funds for construction activities for the MOX facility until August 1, 
2007. DOE is taking prudent actions to minimize the impact of this 
delay and to be prepared to start construction on August 1, 2007, 
consistent with the Public Law.
    Ms. Tauscher. How much time and cost has the delay imposed by the 
FY 2007 Continuing Resolution added to construction of the facility?
    Mr. D'Agostino. The prohibition from making funds available for 
construction activities until August 1, 2007 contained in the Revised 
Continuing Appropriations Resolution, 2007, Public Law 110-5, resulted 
in a $115 million increase in the project's overall baseline cost from 
$4.7 billion to $4.8 billion. The schedule that was provided to 
Congress in December 2006 has been revised. The MOX facility is now 
scheduled to begin producing MOX fuel in September 2016, and to produce 
one metric ton of MOX fuel by September 2017, instead of beginning fuel 
production in March 2016, and producing one metric ton of MOX fuel in 
March 2017 as had been reported to Congress in December 2006. The 
revised cost and schedule baseline has been independently reviewed and 
validated by Burns and Roe. The Department is taking actions to 
minimize the impact of this delay and enable construction of the MOX 
facility to begin on August 1, 2007, consistent with the Public Law.
    Ms. Tauscher. In what sequence will the MOX facility and the 
separate Pit Disassembly and Conversion Facility (PDCF) become 
operational?
    Mr. D'Agostino. The MOX facility is scheduled to begin operations 
in September 2016, and the Department currently plans for PDCF to 
become operational in 2019. However, the PDCF cost and schedule 
baseline is still in a preliminary stage and has not yet been 
independently reviewed or validated.
    Ms. Tauscher. Are there risks to the operation of the MOX facility 
if the PDCF does not become operational when the MOX plant goes on 
line? Why or why not?
    Mr. D'Agostino. In the interim before PDCF comes online, the MOX 
facility will use plutonium oxide feedstock produced at the Los Alamos 
National Laboratory as well as several tons of existing plutonium 
feedstock material, which is currently stored at the Savannah River 
Site. The availability of this material minimizes the risk to MOX 
facility operations.
    Ms. Tauscher. Within the past week, reports have surfaced of an 
internal DOE memo suggesting that a vitrification facility could be 
built at SRS, capable of processing 13 metric tons of plutonium, for 
between $300 and $500 million. Instead of construction the MOX 
Facility, could DOE dispose of all 34 metric tons of plutonium 
stipulated in the 2000 Agreement through this Plutonium Vitrification 
facility?
    Mr. D'Agostino. No. There are several technical reasons why the 
proposed small-scale Plutonium Vitrification process (which would be 
located in the basement of K-Reactor) could not be used to dispose of 
the full 34 metric tons of surplus plutonium.
    Vitrifying up to 13 metric tons of plutonium in lanthanide 
borosilicate glass would be manageable because the process will limit 
worker radiation exposure to levels well within acceptable limits. 
However, managing worker radiation exposure becomes problematic for 
much greater quantities of plutonium. Therefore, DOE would have to 
consider using ceramic immobilization instead.
    However, the amount of time needed to immobilize in ceramic form an 
additional 34 metric tons of surplus plutonium with high level waste 
would extend beyond the planned operating life of the Defense Waste 
Processing Facility at the Savannah River Site. Further, an 
insufficient quantity of high-activity waste remains to be processed at 
the Defense Waste Processing Facility to immobilize an additional 34 
metric tons. Moreover, Russia would likely not regard immobilization as 
consistent with the 2000 Plutonium Disposition Agreement.
    Russia considers immobilization to be another form of storage since 
it does not degrade the plutonium so that it cannot be reused in 
nuclear weapons, as does irradiation in a nuclear reactor (MOX 
approach).
    Ms. Tauscher. Even if a larger vitrification facility would be 
needed, would the cost of that larger facility be equal to the cost of 
building the MOX Fuel Fabrication Facility, currently estimated at $4.7 
billion?
    Mr. D'Agostino. A vitrification/immobilization program capable of 
addressing 40 or more metric tons would require a new stand-alone 
facility with remote handling capabilities due to the cumulative 
radiation levels, worker safety, security concerns and size 
limitations. DOE's 2006 study of plutonium disposition alternatives 
(including ceramic immobilization) concluded that cost is not a 
discriminating factor among the disposition alternatives, i.e. the cost 
estimates for immobilization and MOX were roughly similar. However, the 
cost estimate for ceramic immobilization is highly uncertain because 
ceramic immobilization is an immature technology that would require 
significant research and development and design work before the cost 
could be estimated with reasonable assurance. In contrast, the cost 
estimate of the MOX Facility has a high degree of certainty because the 
design is over 90% complete and MOX technology has been in widespread 
use for decades. Other factors impacting cost estimates for the ceramic 
immobilization alternative include the continued high cost of storing 
the materials during the extended research and development period and 
the insufficient quantity of high level waste available at the Savannah 
River Site to immobilize a larger quantity of surplus plutonium.
    Ms. Tauscher. Has DOE assessed the difference in cost between an 
expanded vitrification capability and the planned MOX facility?
    Mr. D'Agostino. As I stated above, DOE completed a study of 
plutonium disposition alternatives last year, which concluded that cost 
is not a discriminating factor among disposition alternatives.
    Ms. Tauscher. The most serious threat to U.S. national security is 
the proliferation of weapons of mass destruction and acquisition of 
such weapons by terrorists. Yet the 9-11 commission gave the government 
a ``D'' grade on our efforts to address these threats, and found that 
the prevention of WMD terrorism must be an urgent national security 
priority that warrants a maximum effort. Are there unmet needs or 
unfulfilled requirements that could be met with additional funding?
    Mr. D'Agostino. Since September 11, 2001, the DOE nuclear non-
proliferation budget has roughly doubled. The FY 2008 request for 
defense nuclear non-proliferation totals $1.673 billion, a slight 
decrease from the FY 2007 operating level. This reduction is the result 
of NNSA achieving and approaching important milestones in our nuclear 
security work in Russia, including the completion of major security 
upgrades at several sites under the International Nuclear Materials 
Protection and Cooperation program (MPC&A) and the anticipated end of 
construction of a fossil fuel plant in Seversk by the end of calendar 
year 2008 under the Elimination of Weapons Grade Plutonium Production 
(EWGPP) Program.
    The FY 2008 request was accompanied by a supplemental request for 
$50 million to support the Megaports program and Global Threat 
Reduction Initiative. The $30 million for the Megaports program will 
implement the program at ports where agreements were recently signed 
(e.g., Colombia, Panama, and Mexico) and in anticipation of agreements 
that will be signed shortly (Pakistan, Malaysia, Indonesia, Jordan, and 
Japan). The FY 2008 supplemental request for $20M in supplemental 
funding for GTRI is needed to accelerate and expand security upgrades 
on vulnerable high-priority radiological sites overseas.
    Moreover, the DOE budget contains a substantial request for the 
Global Nuclear Energy Partnership (GNEP). GNEP supports U.S. non-
proliferation objectives in a number of ways including: (1) diminishing 
incentives for states to pursue indigenous enrichment and reprocessing 
programs; (2) deploying technology allowing us to reduce stocks of 
separated plutonium; (3) advancing proliferation-resistant reactor 
technology; and (4) advancing safeguards technology.
    With our FY 2008 request and the supplemental request, we feel that 
requirements are met.
    Ms. Tauscher. Despite Congress calling attention to this problem 
years ago, uncosted and unobligated balances persist among the NNSA 
non-proliferation programs. What specifically is NNSA doing to address 
this issue and as a result increase the effectiveness of its non-
proliferation programs and activities?
    Mr. D'Agostino. We are eager to spend appropriated funds to advance 
our non-proliferation policies and programs. At the same time, we owe 
it to the American taxpayer to verify that work has been properly 
completed before paying for it. Looking at costs alone, I agree that 
the uncosted balances for many of the Defense Nuclear Non-proliferation 
programs have been high. However, if you take into account the nature 
of our work in over 90 countries around the world, NNSA's record in 
uncosted and unobligated balances is good. Contracts with entities 
working in Russia and the former Soviet Union, for example, do not 
follow normal obligation and costing patterns, due to the time it can 
take to negotiate a contract, complete work in a remote area, gain site 
access in order to review and accept the work prior to final payment, 
and meet export control requirements.
    A significant amount of NNSA's unobligated funds lies in the 
fissile materials disposition program, which had been held up due to 
the absence of liability protection for U.S. work in Russia. A 
liability protocol was signed in 2006 and we hope that this situation 
will soon be improved. If the fissile material disposition project were 
removed from the calculation, there is only $6 million unobligated out 
of a budget of $1.7 billion.
    In the area of uncosted balances, NNSA has made progress. For 
example, NNSA has accelerated its work in Russia under the Bratislava 
Initiative, which has resulted in approximately $150M within the last 
twelve months in contracts signed with our Russian counterparts. This 
will improve our uncosted balance figures. Additionally, in the Global 
Initiatives for Proliferation Prevention (GIPP) program, we have 
changed payment methods to institutes, resulting in an 80% increase on 
costing of funds.
    Ms. Tauscher. The 9-11 Commission found that much remains to be 
done to secure weapons-grade nuclear materials. Nuclear materials 
throughout the former Soviet Union still lack effective security 
protection, and many nuclear reactors throughout the world contain 
enough HEU to fashion a nuclear device but lack even basic security 
features.
    What more could the NNSA be doing in both the International Nuclear 
Materials Protection and Cooperation (MPC&A) program and the Global 
Threat Reduction Initiative to address the 9-11 Commission's concerns?
    Mr. D'Agostino. NNSA is working hard to secure weapons-grade 
nuclear materials. In the area of MPC&A, NNSA is working aggressively 
to complete the MPC&A work with Rosatom and the Russian Federation 
Ministry of Defense by the 2008 deadline established at the Bratislava 
Summit. At this time, NNSA has secured 175 of 210 buildings with 
weapons-usable nuclear material in the Russian Federation, and has 
completed MPC&A upgrades at 50 of 73 warhead sites. The program is also 
responsible for the downblending of 8.4 metric tons of highly enriched 
uranium. NNSA has only been denied access to two locations in the 
Russian Federation where it would like to upgrade the existing MPC&A 
programs.
    Global Threat Reduction Initiative (GTRI) programs have also done 
much to secure both nuclear and radiological materials. For example, 
GTRI already has or is planning to do threat reduction work in more 
than 90 countries, working with and through the IAEA, foreign 
governments, and other international partners to reduce and protect 
vulnerable nuclear and radiological materials. In addition, GTRI now 
has legislative authority to enter into agreements to accept 
contributions from foreign governments and others for international 
threat reduction work. In the past three years, GTRI has greatly 
accelerated and expanded threat reduction efforts. GTRI has accelerated 
the rate of HEU-to-LEU reactor conversions from the historical rate of 
1.5 per year to 5 conversions in FY 2006 alone as well as expanding the 
scope of the reactor conversion program from 106 to 129 reactors. GTRI 
has accelerated the rate of U.S. radiological recoveries from about 
1,100 per year to over 2,100 per year, and accelerated the rate of 
international site security upgrades of radiological material from 35 
per year to over 200 per year. Additionally, GTRI recently awarded to 
three small business teams a $100M, 5-year contract to conduct threat 
reduction work more efficiently and cost effectively.
    Finally, with approval of the supplemental request of an additional 
$20 million in FY 2008, GTRI would remove an additional 45 
Radioisotopic Thermoelectric Generators (RTGs) in the Far East and 
Northern Sea Routes in Russia, secure up to 10 radiological sites and 
recover orphan radiological sources in China in support of the 2008 
Olympic Games, and secure additional radiological sites in Pakistan, 
Lebanon, Egypt, Turkey, and Kenya.
    Ms. Tauscher. How much more time and funding does NNSA need to do 
to secure all currently unsecured weapons-grade nuclear material around 
the world?
    Mr. D'Agostino. The Office of International Nuclear Material 
Protection and Cooperation will meet the 2008 deadline for securing 
weapons-grade nuclear material established at the Bratislava Summit. 
The FY 2008 budget provides the resources necessary to complete the 
work on this timeline, assuming that the request for an additional $49 
million is allocated in the FY 2007 supplemental budget request.
    With regard to the Global Threat Reduction Initiative's (GTRI) 
programs to secure nuclear and radiological materials, and consistent 
with the FY 2008 Budget Request, GTRI plans to: (1) convert 129 
research reactors from HEU to LEU use by 2018; (2) remove or dispose of 
about 4,923 kilograms of nuclear material (HEU and plutonium) from 
civilian sites, enough material for 200 crude nuclear weapons, by 2013; 
(3) remove 31,700 excess U.S. radiological sources totaling about 
450,000 curies, enough for 2,255 radiological dirty bombs, by 2020; (4) 
complete the safe and secure long-term storage of 3,000 kilograms of 
plutonium and 10,000 kilograms of HEU, enough material to make 775 
crude nuclear weapons, from the BN-350 reactor in Kazakhstan by 2010; 
and (5) protect more than 3,300 high-priority radiological sites 
totaling about 50 million curies, enough for 50,000 radiological dirty 
bombs, by 2028. GTRI threat reduction actions are mostly scalable and 
could be accelerated with additional funding, as identified in the FY 
2008 request for an additional $20 million in supplemental funding.
    Ms. Tauscher. NNSA's Non-proliferation and Verification R&D Program 
is the sole remaining U.S. government capability for long-term nuclear 
non-proliferation R&D and other critical work that keeps the U.S. on 
the technological cutting edge. However, it is also thinly staffed and 
supports many U.S. government entities outside of NNSA. Nevertheless, 
the FY 2008 budget request for the program is below the FY 2007 
request.
    What more can NNSA do to expand and strengthen this program, 
particularly to develop the capacity to detect nuclear material origin, 
uranium enrichment and plutonium reprocessing; and significantly 
increase the qualified scientific workforce in this area?
    Mr. D'Agostino. NNSA strongly supports the non-proliferation 
research and development program. Integral to this work is a vigorous 
emphasis on long-term basic and applied research toward detection of 
foreign production of enriched uranium and plutonium, as well as 
radiation detection. NNSA actively works to integrate all phases of its 
R&D in these areas with other U.S. government R&D organizations to 
ensure that the maximum benefit is obtained for every research dollar, 
thereby providing cutting edge technology for NNSA needs, as well as 
that of other parts of the U.S. Government. An area that has gained 
particular emphasis in the past two years, and will expand in FY 2008, 
is basic research in the academic community that not only directly 
supports NNSA non-proliferation missions, but also provides critical 
support to academic programs that are training the next generation of 
non-proliferation researchers.
    Ms. Tauscher. The Non-proliferation and International Security 
(NIS) program offers tremendous opportunity for more robust activity 
that is urgent given the WMD proliferation concerns we face today. The 
NIS program includes activities to address emerging proliferation 
concerns in North Korea and Iran; engagement on non-proliferation with 
the Russia, China, India and other states; inter-agency participation 
in the Proliferation Security Initiative (PSI); assistance to the 
International Atomic Energy Agency (IAEA); cooperation on international 
safeguards and export controls in South Asia and the Middle East; 
efforts to strengthen U.S. commitments to international agreements and 
regimes; and the establishment of a contingency fund for opportunities 
to prevent WMD proliferation and terrorism that may arise.
    Why is the FY 2008 request for NIS below the FY 2007 request?
    Mr. D'Agostino. The decrease in the Non-proliferation and 
International Security budget from FY 2007 to FY 2008 reflects the 
completion of Russian scientist redirection projects under the Nuclear 
Cities Initiative, an element of the Global Initiatives for 
Proliferation Prevention (GIPP) program. GIPP will continue to work in 
the former Soviet Union and elsewhere to prevent the proliferation of 
WMD expertise by redirecting scientists and personnel with WMD `know-
how', into sustained, non-military employment. The reduction also 
reflects improved efficiencies in implementation of the Highly Enriched 
Uranium Transparency program.
    Ms. Tauscher. What more can NNSA be doing to strengthen this 
critical program?
    Mr. D'Agostino. NNSA recognizes that nuclear proliferation is a 
global threat, evidenced by developments such as the A.Q. Khan illicit 
procurement network and the challenges posed by North Korea and Iran. 
NNSA is working to address this threat, and help realize the non-
proliferation benefits of GNEP and other new initiatives such as the 
Global Initiative to Combat Nuclear Terrorism. To address these new 
challenges and opportunities, NNSA plans to devote increased resources 
in FY 2008 to facilitate the safe and secure global expansion of 
nuclear energy; review ways to strengthen international nuclear 
safeguards; prevent illicit trafficking in nuclear and nuclear-related 
materials, equipment and technology; address urgent threats posed by 
proliferant states; and provide technical and policy support to U.S. 
Government initiatives to combat nuclear terrorism and nuclear 
proliferation worldwide. This increased emphasis will augment NIS 
export control, commodity identification, safeguards, and physical 
protection cooperation programs, and involve new international partners 
in regions of proliferation concern.
    Ms. Tauscher. In addition to programs in Russia, where else in the 
world is NNSA looking to expand its non-proliferation programs, and 
what programs is it pursuing in these regions?
    Mr. D'Agostino. The NIS program engages more than 60 countries and 
is expanding its non-proliferation efforts across the globe. In support 
of the Department's Global Nuclear Energy Partnership (GNEP), NIS will 
extend its non-proliferation outreach activities to potential GNEP 
collaborators worldwide. Principally through our International 
Safeguards Engagement Program and IAEA safeguards support efforts, we 
will collaborate with international partners to develop and implement 
new safeguards systems and technologies for advanced fuel cycle 
concepts, such as those envisioned under GNEP. We also will engage 
nascent nuclear energy states to help develop the infrastructure 
required to support the safe and secure use of nuclear energy and other 
peaceful applications of nuclear technology, particularly in Asia and 
the Middle East. Our International Non-proliferation Export Control 
Program (INECP) is expanding its export control assistance and 
Commodity Identification Training to new partners in Europe, the Middle 
East, South East Asia and Latin America. Finally, the Global 
Initiatives for Proliferation Prevention Program is engaging former WMD 
scientists in Libya and Iraq on civilian technical projects, including 
efforts to re-build the Iraqi science and technology infrastructure.
    Ms. Tauscher. Relations between the U.S. and Russia appear to be 
deteriorating in some respects, but at the same time vulnerabilities 
remain in Russia's large nuclear and chemical infrastructure that could 
be exploited by terrorists. What is NNSA doing to ensure that as it 
expands the scope of its non-proliferation programs globally, existing 
non-proliferation programs with Russia remain a cooperative endeavor 
and the U.S.-Russia non-proliferation partnership continues to address 
remaining work in Russia and other possible opportunities for non-
proliferation cooperation?
    Mr. D'Agostino. NNSA is very serious about its non-proliferation 
relationship with Russia, and is taking action to ensure that non-
proliferation work already completed in Russia is sustained, and the 
lessons learned through our work with Russia are applied to the Global 
Initiative to Combat Nuclear Terrorism. NNSA and the Russian Federal 
Atomic Energy Agency (Rosatom) are working on a plan [agreement reached 
after hearing, on April 10] to sustain and maintain security upgrades 
installed at Russian nuclear material sites over the last 14 years. The 
NNSA Rosatom plan outlines specific details for how the upgrades will 
be sustained so that they can be transitioned to sole Russian support 
for the future, as mandated by U.S. law. It covers sustainability at 
nuclear material sites. Separate discussions are currently underway to 
sustain the work performed at sites with nuclear weapons. Additionally, 
NNSA's scientist engagement program, the Global Initiatives for 
Proliferation Prevention (GIPP), continues its focus on matching 
Russian scientists from the former Soviet weapons complex with private 
industry to give them tools for sustainable employment outside of the 
weapons sector.
    Just before the July 2006 St. Petersburg G8 Summit, Presidents Bush 
and Putin announced the Global Initiative to Combat Nuclear Terrorism 
to strengthen cooperation worldwide on nuclear materials security and 
to prevent terrorist acts involving nuclear or radioactive substances. 
In essence, the initiative is designed to take the lessons learned 
through U.S.-Russia cooperation and apply them world wide. The Global 
Initiative, which now boasts 13 members, is a force multiplier which 
takes the non-proliferation expertise of one country and shares it with 
all members.
    Ms. Tauscher. The NNSA recently announced that it has selected a 
design produced by Lawrence Livermore National Lab in the Reliable 
Replacement Warhead (RRW) design competition. The LLNL design is based 
in part on a family of plutonium pits that has been previously tested. 
The competing design from Los Alamos National Lab (LANL) was not 
similarly based on previously tested pits, but did rely on data from 
previous tests. Although the LLNL design was selected, NNSA has 
indicated it will continue evaluation of certain components of the LANL 
design.
    Why is NNSA proceeding with further evaluation of the LANL design? 
What, if any plans, does NNSA currently have for the LANL design 
components that will be evaluated?
    Mr. D'Agostino. Some features of the New Mexico Reliable 
Replacement Warhead (RRW) design, submitted by the team from Los Alamos 
National Laboratory and Sandia National Laboratories, were deemed 
highly innovative. These features will be developed in parallel with 
the Lawrence Livermore National Laboratory effort and as they mature, 
they will be evaluated for potential insertion into the RRW design 
through use of a rigorous change control process, for further work for 
potential use in future applications, or canceled.
    Ms. Tauscher. The NNSA recently announced that it has selected a 
design produced by Lawrence Livermore National Lab in the Reliable 
Replacement Warhead (RRW) design competition. The LLNL design is based 
in part on a family of plutonium pits that has been previously tested. 
The competing design from Los Alamos National Lab (LANL) was not 
similarly based on previously tested pits, but did rely on data from 
previous tests. Although the LLNL design was selected, NNSA has 
indicated it will continue evaluation of certain components of the LANL 
design.
    How will NNSA manage the Phase 2a study of the LLNL design that is 
proposed for FY 2008? What are the respective roles of LANL and LLNL?
    Mr. D'Agostino. The National Nuclear security Administration (NNSA) 
will use a phase-gate process to manage the Reliable Replacement 
Warhead (RRW) Phase 2A study. A phase-gate is a project management 
control tool placed at the end of each phase for the purpose of 
determining if the project is ready to proceed to the next phase. NNSA 
has embarked on an effort to identify lower level gates for its 
activities within each phase so as to instill additional project 
management rigor and discipline. This effort is modeled after 
commercial industry, which uses this approach to drive shorter 
development and production times, results in reduced component and 
assembly costs, and reduces cost and schedule overruns.
    The roles of Lawrence Livermore National Laboratory (LLNL) and 
Sandia National Laboratories (SNL) for the first RRW are warhead 
design, qualification, and certification without underground testing. 
Los Alamos National Laboratory's (LANL) role is to lead the independent 
peer review team and participate in development of technologies and 
advanced science analysis for potential insertion in the future 
stockpile. Additionally, the pit manufacturing facility at LANL will 
implement the manufacturing process for the RRW pit and then 
manufacture them.
    Ms. Tauscher. The NNSA recently announced that it has selected a 
design produced by Lawrence Livermore National Lab in the Reliable 
Replacement Warhead (RRW) design competition. The LLNL design is based 
in part on a family of plutonium pits that has been previously tested. 
The competing design from Los Alamos National Lab (LANL) was not 
similarly based on previously tested pits, but did rely on data from 
previous tests. Although the LLNL design was selected, NNSA has 
indicated it will continue evaluation of certain components of the LANL 
design.
    While the FY 2007 National Defense Authorization Act authorized 
activity on the so called ``RRW-2,'' the FY 2008 budget request 
identifies no funding for any such activity. Does NNSA have any plans 
to conduct any work--conceptual or otherwise--on RRW-2 in FY 2008?
    Mr. D'Agostino. On November 30, 2006, the Nuclear Weapons Council 
authorized a Phase 1 Concept Study to consider replacement concepts for 
aging air-delivered nuclear weapons. The Reliable Replacement Warhead 
(RRW)-2 Phase 1 Concept Study was initiated at the request of the 
United States Air Force as a joint Department of Defense and Department 
of Energy study. The study began in the second quarter of FY 2007 and 
is to be completed twelve months after kickoff. The RRW-2 Concept Study 
will continue into 2008, with a projected completion date in the second 
quarter of FY 2008. The FY 2008 cost of the concept study, 
approximately $2 million, is part of the RRW program and funding line.
    Ms. Tauscher. The NNSA recently announced that it has selected a 
design produced by Lawrence Livermore National Lab in the Reliable 
Replacement Warhead (RRW) design competition. The LLNL design is based 
in part on a family of plutonium pits that has been previously tested. 
The competing design from Los Alamos National Lab (LANL) was not 
similarly based on previously tested pits, but did rely on data from 
previous tests. Although the LLNL design was selected, NNSA has 
indicated it will continue evaluation of certain components of the LANL 
design.
    Is there any work being done on RRW-2 in the current fiscal year 
(FY 2007)?
    Mr. D'Agostino. Yes. On November 30, 2006, the Nuclear Weapons 
Council authorized a Phase 1 Concept Study to consider replacement 
concepts for aging air-delivered nuclear weapons.
    The RRW-2 Phase 1 Concept Study was initiated at the request of the 
United States Air Force as a joint Department of Defense and Department 
of Energy study. The study began in the second quarter of fiscal year 
2007 and is to be completed 12 months after kickoff. The objectives of 
the concept study are to look at options that provide sufficient 
operational flexibility as replacement weapons for the current classes 
of air-delivered nuclear weapons, maintain effectiveness with improved 
margin, enhance end-to-end surety themes (safety, security, and use 
control), and, increase efficiencies and reduce costs across the 
nuclear complex. A technical goal is to design a warhead that could 
replace more than one type and avoid the need to conduct life extension 
programs on legacy systems.
    Ms. Tauscher. The FY 2008 request for Weapons Dismantlement and 
Disposition of $52.3 million is $22.7 million below the FY 2007 
request. NNSA budget justification documents describe the decrease as 
reflecting the completion of capital improvements and other non-
recurring investments at Pantex.
    Will the amount of dismantlement work at Pantex in FY 2008 be less 
than, equal to, or greater than the amount of dismantlement work in FY 
2007?
    Mr. D'Agostino. The amount of dismantlement work at Pantex in FY 
2008 is planned to be comparable to that performed in FY 2007. Prior 
year funding provided capability and capacity to perform an increase in 
dismantlement workload and a comparable investment for capacity is not 
needed annually. Numerically, in FY 2008 we plan to perform a slightly 
reduced number of dismantlement operations compared to FY 2007. This is 
due to a change in the mix of weapon programs, with some dismantlements 
requiring more time and labor per weapon compared to those types being 
dismantled now. With the requested funding, the FY 2008 planned 
quantities still exceed those listed in the FY 2006 Dismantlement 
Report to Congress.
    Ms. Tauscher. The FY 2008 request for Weapons Dismantlement and 
Disposition of $52.3 million is $22.7 million below the FY 2007 
request. NNSA budget justification documents describe the decrease as 
reflecting the completion of capital improvements and other non-
recurring investments at Pantex.
    In terms of dismantlement work, is the Pantex plant operating at 
capacity?
    Mr. D'Agostino. In terms of dismantlement work, the Pantex Plant is 
operating at the allocated dismantlement capacity which is consistent 
with the FY 2006 Dismantlement Report to Congress. Overall, the 
National Nuclear Security Administration balances available 
technicians, equipment, facilities, transportation, and storage in 
accomplishing all of its workload including Life Extension Programs, 
weapon surveillance, and the dismantlement program.
    Ms. Tauscher. The Complex 2030 report NNSA submitted to the 
congressional defense committees on January 31, 2007, notes that NNSA 
will seek to maintain a relatively level Directed Stockpile Work budget 
and will rely on reductions in legacy weapon requirements, (e.g., 
number of future Life Extension Programs (LEPs) and stockpile size/
composition) to pay in part for the Reliable Replacement Warhead (RRW) 
program.
    If such reductions will pay ``in part'' for RRW, from where will 
NNSA draw the remainder of the required funds?
    Mr. D'Agostino. The remainder of funds required to support the 
Reliable Replacement Warhead (RRW) program will be made available 
through the reprioritization of other existing Directed Stockpile Work 
(DSW) and Campaign programs and their associated funding profiles and 
budgets. The DSW and Campaign programs that will be eliminated or 
reduced in favor of RRW would otherwise be used to support maintenance, 
surveillance and refurbishment of legacy stockpile systems.
    Ms. Tauscher. The Complex 2030 report NNSA submitted to the 
congressional defense committees on January 31, 2007, notes that NNSA 
will seek to maintain a relatively level Directed Stockpile Work budget 
and will rely on reductions in legacy weapon requirements, (e.g., 
number of future Life Extension Programs (LEPs) and stockpile size/
composition) to pay in part for the Reliable Replacement Warhead (RRW) 
program.
    Will transformation of the nuclear weapons complex be required 
regardless of what happens with RRW? To what extent is complex 
transformation dependent on RRW?
    Mr. D'Agostino. We need to transform the nuclear weapons complex to 
meet the Nuclear Posture Review responsive infrastructure goals whether 
we proceed with RRW concepts or retain legacy designs. Many aspects of 
infrastructure transformation (e.g., consolidating special nuclear 
materials, establishing a supply chain management center, and improving 
business practices) are independent of stockpile composition. Likewise, 
portions of NNSA's production infrastructure are outdated and require 
modernization regardless of the composition of the stockpile. RRW 
concepts enable production infrastructure optimization because some 
specific capabilities (e.g., beryllium part manufacturing) do not have 
to be retained and RRW safety and security design features facilitate 
improved operational efficiency. Defined requirements on the pace of 
stockpile transformation would enable better informed decisions on 
production capacities, and design features enable better informed 
decisions on capabilities.
    Ms. Tauscher. The report on Complex 2030 notes that NNSA will use 
savings from consolidation of special nuclear material (SNM), reduction 
of square footage, consolidation of capabilities, productivity 
improvements, and reductions in future legacy weapons LEPs to fund 
transformation, but adds that ``most cost reductions take years to be 
realized thus greatly slowing the potential rate of transformation 
especially for costly nuclear facilities. Investment is required to 
reduce total square footage.''
    Since most cost savings will not materialize for several years--
such as cost savings from downsizing the Y-12 and Kansas City plants--
how will NNSA fund near-term transformation requirements?
    Mr. D'Agostino. NNSA plans to achieve transformation to Complex 
2030 through existing programs and management structure, and, to the 
extend practicable, within projected funding levels.
    We are reinvesting savings that are being produced immediately 
through several of our on-going management initiatives, such as e-
commerce and consolidating procurements among contractors. If major new 
facilities are justified, incremental funding requests for capital 
projects will be supported by business case analyses.
    Ms. Tauscher. How does NNSA weigh the vulnerabilities associated 
with the physical security of the weapons complex on the one hand, and 
the cyber security of the complex on the other?
    Mr. D'Agostino. Potential consequences are at the heart of our 
vulnerability assessment of the threats confronting NNSA. Our first 
priority has been, and will remain, to protect against the loss or loss 
of control of nuclear weapons and Special Nuclear Material (SNM). The 
consequences associated with the loss of control over these assets 
would be so dire to our national security that they clearly justify the 
large investments in physical and cyber security necessary to implement 
and maintain protection programs to defeat the most determined 
adversary. We understand the need to provide strong security for the 
diverse activities and information resident in NNSA operations. While 
no security program can ever be ``unbreakable,'' NNSA is confident that 
it is addressing worst-case vulnerabilities and that the security 
programs, both physical and cyber, remain capable of providing the 
levels of security demanded by our national security mission.
    The security program requirements for physical and cyber are 
determined largely by Departmental policy developed in response to 
vulnerability assessments conducted by the NNSA program. This 
assessment information is integrated, consolidated and quantified, 
where possible, to facilitate analysis of the threat and provide 
insight into risks to our physical and cyber security postures. 
Prioritization of investments to address high-risk vulnerabilities is 
accomplished annually, first by the physical and cyber security program 
managers in light of DOE and NNSA program guidance and multi-year 
program plans. Then, integrated corporate priorities are established in 
the annual Programming phase of NNSA's Planning, Programming, Budgeting 
and Evaluation process, where all NNSA program priorities are evaluated 
and balanced within our five-year funding targets.
    Ms. Tauscher. How does NNSA prioritize its investment in physical 
and cyber security?
    Mr. D'Agostino. Physical and cyber security are two separate 
subprograms within the Safeguards and Security GPRA Unit and managed 
separately by NNSA's Associate Administrator for Defense Nuclear 
Security and the NNSA's Chief Information Officer. Prioritization of 
investments for these programs is accomplished by the individual 
program managers with respect to DOE/NNSA program guidance and multi-
year program plans. Integrated corporate priorities are established in 
the annual programming phase of NNSA's Planning, Programming, Budgeting 
and Evaluation process, where all NNSA program priorities are evaluated 
and balanced within our five-year funding targets.
    Using a risk management approach, NNSA makes its investment 
decisions on the basis of the potential adverse consequences associated 
with the assets being protected. This ``graded'' approach works to 
ensure that assets with the highest adverse consequences from loss, 
such as the loss of control of a nuclear weapon, receive the resources 
needed to provide the highest level of security. While mitigation of 
adverse consequences has been the backbone of our prioritization 
approach, NNSA continues to balance the risks to information and cyber 
security against the heavy demands of physically protecting nuclear 
assets. This balanced approach ensures that the necessary funding is 
applied to all security programs, to provide the highest levels of 
security.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. EVERETT
    Mr. Everett. What is the anticipated non-proliferation unobligated, 
uncommitted, and unexpended balances for FY07? What have been prior 
year balances?
    Mr. D'Agostino.

Fiscal Year 2007 Balances

    Projected unobligated balances for FY 2007 total approximately 
$50M. This $50M in unobligated funds is for the Russian plutonium 
disposition program (Note: This figure does not include $151M set aside 
in the past by Senator Domenici for Russian plutonium disposition). 
These funds have been held up due to the lack of liability protection 
for U.S. work in Russia. A liability protocol was signed in 2006 and we 
are hopeful that this situation will soon be improved.
    Projected uncommitted balances for Operating funds total $242M, 11% 
of the DNN budget. Projected uncommitted balances for construction 
projects total $387M. $380M of this uncommitted balance is for the U.S. 
MOX program, which is awaiting an August decision on the start of 
construction. The remaining $7M is for PNNL area, which is awaiting CD-
2 approval.
    Unexpended balance projections are not available at this time due 
to implementation delays related to the extended Continuing Resolution. 
We will provide this figure to Congress as soon as possible.

Prior Year Balances

    In FY 2006, uncommitted funds totaled $345M or 12.8% of DNN's 
budget and unexpended funds totaled $1.3B. In FY 2005, uncommitted 
funds totaled $369M or 15.5% of DNN's budget and unexpended funds 
totaled $956M. For both FY 2006 and FY 2005, unobligated funds totaled 
less than 1% (Note: This figure does not include the $151M set aside in 
the past by Senator Domenici for Russian plutonium disposition). Over 
the past three fiscal years, DNN has improved efficiency and continued 
to bring down the percentage of uncommitted funds.
    Mr. Everett. What are the challenges NNSA faces in obligating and 
expending defense nuclear non-proliferation programs in foreign 
nations?
    Mr. D'Agostino. A significant amount of Defense Nuclear Non-
proliferation's (DNN) unobligated funds, projected to be approximately 
$50M at the end of FY 2007, lie in the fissile materials disposition 
program, which had been held up due to the lack of liability protection 
for U.S. work in Russia. With the signing of a liability protocol in 
2006, we are hopeful that this situation will soon be improved. If the 
fissile material disposition project were removed from the calculation, 
there is only $6 million unobligated out of a budget of $1.7 billion.
    The Defense Nuclear Non-proliferation program currently works in 
over 90 countries, which impacts the time necessary to expend funds. 
The amount of time necessary to sign a contract with a foreign partner 
can be considerable. For example, contracts with entities working in 
Russia and other states of the former Soviet Union do not follow normal 
obligation and costing patterns, due to the time it can take to 
negotiate a contract, complete work in a remote area, gain site access 
in order to review and accept the work prior to final payment, and meet 
export control requirements. Overall, it typically can take between 18-
24 months to fully expend funds.
    Mr. Everett. How will progress in Russian plutonium disposition 
factor into U.S. plutonium disposition plans and the U.S. proceeding 
with MOX?
    Mr. D'Agostino. The U.S.-Russia Plutonium Management and 
Disposition Agreement (the 2000 Agreement) requires that the United 
States and Russia implement their disposition programs ``in parallel to 
the extent practicable.'' This provision does not require that our 
programs be inflexibly linked or tied to each other in a manner that 
impedes progress or adversely affects costs. The Russian program for 
disposing of 34 metric tons of plutonium as MOX fuel may proceed in a 
future direction different than the United States (e.g., reactor type, 
fuel fabrication method, disposition schedule), given the differing 
regulatory regimes, policies and infrastructures in the United States 
and Russia.
    Constructing and operating a MOX Fuel Fabrication Facility at the 
Savannah River Site for disposing of surplus plutonium is in the U.S. 
national interest and consistent with national security and non-
proliferation objectives. Doing so will convert plutonium into forms 
not readily usable for weapons, and will encourage Russia to dispose of 
34 metric tons of its excess weapons plutonium in accordance with the 
2000 U.S.-Russia Plutonium Management and Disposition Agreement. 
Proceeding with the U.S. MOX program will also help reduce storage 
costs for nuclear materials, reduce safeguards and security costs, and 
support the Department's efforts to consolidate nuclear materials 
throughout the Relaxing Cold War design constraints, which maximized 
yield to weight ratios, allows for the design of replacement components 
that are easier to manufacture, are safer and more secure, eliminate 
environmentally dangerous materials, and increase design margins, thus 
ensuring long-term confidence in reliability and a correspondingly 
reduced chance we would ever need to carry out another nuclear test. 
Reliable Replacement Warhead designs will provide more favorable 
reliability and performance margins than those currently in the 
stockpile, and will be less sensitive to aging effects and 
manufacturing variances.
    Mr. Everett. What are the quantitative risks of not going forward 
with RRW?
    Mr. D'Agostino. Today's nuclear weapons stockpile is safe and 
reliable. However, the warheads are aging and are on average over 20 
years old. The stockpile was largely designed and built during the Cold 
War for a Cold War enemy.
    The current approach to stockpile sustainment relies on extending 
the life of warheads, first fielded in the 1970s, with technologies 
that are increasingly difficult and costly to remanufacture to original 
specifications. This approach has risks. The long-term implications of 
successive refurbishments of Cold War legacy warheads must be 
considered. Each refurbishment takes us further from the tested 
configurations of these highly optimized systems, raising concerns 
about our ability to ensure stockpile confidence over the long term 
without requiring a return to underground nuclear testing.
    The directors of Lawrence Livermore National Laboratory, Los Alamos 
National Laboratory, and Sandia National Laboratories have alerted us 
to these concerns. The Commander of U.S. Strategic Command also shares 
these concerns based on analysis provided by his Strategic Advisory 
Group's Stockpile Assessment Team.
    A long-term strategy based on extending the life of legacy warheads 
leaves the U.S. heavily reliant on a limited number of aging warhead 
types for its nuclear deterrent and does not adequately exercise the 
infrastructure and scientists, engineers, and technicians needed for a 
responsive infrastructure. As a result of this strategy, the U.S. 
maintains a ``hedge'' of non-deployed warheads to mitigate the risks of 
geopolitical or technological surprise. This strategy also limits our 
ability to introduce modern surety features to improve the safety and 
security of the stockpile.
    Mr. Everett. To be clear, what RRW activities are planned with the 
money requested for FY08?
    Mr. D'Agostino. The FY 2008 request funds the Reliable Replacement 
Warhead (RRW) RRW-1 Phase 2A study and the RRW-2 concept study. For 
RRW-1, the National Nuclear Security Administration's (NNSA) intent is 
to develop high fidelity baseline schedules and cost estimates. For 
RRW-2, requirements and concepts (paper studies) will be evaluated and 
documented. The laboratories will further refine the concept design and 
work with the plants concurrently during the RRW-1 Phase 2A Study to 
support a sound planning effort. This activity will include: some 
revising and extending of the selected design, analyzing and scheduling 
the required development work, planning and executing any required peer 
reviews, developing the detail cost estimate. As an example the 
certification plan will be prepared in detail including identifying and 
scheduling the hydrodynamic experiments required and computational 
analyses necessary for certification. Some computations and some 
technology experiments will be performed during the study to assure 
that the project scope is correctly assessed. NNSA will return to 
Congress at the appropriate time to seek both authorization and 
appropriations to proceed into the engineering development phase, if 
the Nuclear Weapons Council decides to proceed with development of the 
RRW.
    Mr. Everett. How will NNSA and DOD measure progress in the RRW 
design and development? And, what criteria will NNSA and DOD use to 
permit the RRW to move from system design and development to 
production?
    Mr. D'Agostino. The National Nuclear Security Administration and 
the Department of Defense will use standard project management tools to 
manage and measure progress of the Reliable Replacement Warhead (RRW) 
program. Phase-gate life-cycle processes will be utilized with Change 
Control (Cost, Schedule, and Scope), Risk Management, Requirements 
Management, Integrated Schedule, and Earned Value to add more 
discipline to project management.
    The Navy and the National Nuclear Security Administration will 
monitor progress against schedules, costs and milestones on a regular 
basis, with quarterly formal reviews.
    The Nuclear Weapons Council (NWC) will review evidence that the 
system meets requirements, that the design qualification and 
certification activities are complete, and that the production 
processes are qualified and ready to produce parts. If the NWC 
recommends and the President decides to put RRW into the nuclear 
weapons stockpile, authorization for quantity production would be 
sought from the NWC. We will work with Congress at the appropriate 
stages to seek authorization and appropriations.

                                  <all>

</pre></body></html>
